No.

IN THE

LEZMOND CHARLES MITCHELL,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
On Application for Stay

APPENDIX TO EMERGENCY APPLICATION FOR A STAY OF EXECUTION
Execution Scheduled for August 26, 2020 (time to be determined)

APPENDIX INDEX
PAGE
A.

B.
C.
D.

E.

F.

G.

H.

I.

United States Court of Appeals for the Ninth Circuit,
No. 20-99009 (3:01-cr-01062-DGC-1, District of Arizona,
Phoenix) Opinion, filed August 19, 2020

001-013

United States District Court for the District of Arizona,
No. CR-01-01062-001-PCT-DGC, Order, filed August 13, 2020

014-029

United States Dept. of Justice/Federal Bureau of Prisons,
Notice of Execution Date, July 29, 2020

030

United States Court of Appeals for the Ninth Circuit, No. 2099009 (3:01-01062-DGC-1, District of Arizona, Phoenix),
Amended Order, filed August 14, 2020

031

United States Court of Appeals for the Ninth Circuit, No. 2099009 (3:01-01062-DGC-1, District of Arizona, Phoenix),
Order, filed August 18, 2020

032-033

United States Court of Appeals for the Ninth Circuit,
No. 20-99009, Notice of Filing of Declaration of Rick Winter,
filed August 19, 2020

034-038

United States Court of Appeals for the Ninth Circuit, No. 2099009, Appellant’s Reply to Appellee’s Notice of Filing of
Declaration, filed August 19, 2020

039-081

United States Court of Appeals for the Ninth Circuit,
No. 20-99009 (3:01-01062-DGC-1, District of Arizona, Phoenix),
Order, filed August 21, 2020

082

In the United States District Court for the District of Columbia,
Civil Action No. 07-2145 (TSC) (Robinson v. Barr, et al.),
Notice of Adoption of Revised Protocol, filed July 25, 2019

083-086

(1 of 17)
Case: 20-99009, 08/19/2020, ID: 11795665, DktEntry: 18-1, Page 1 of 13

FILED
FOR PUBLICATION

AUG 19 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

20-99009

D.C. No.
3:01-cr-01062-DGC-1

v.
OPINION

LEZMOND C. MITCHELL,
Defendant-Appellant.

Appeal from the United States District Court
for the District of Arizona
David G. Campbell, District Judge, Presiding
Argued and Submitted August 18, 2020
Pasadena, California
Before: Sandra S. Ikuta, Morgan B. Christen, and Andrew D. Hurwitz, Circuit
Judges.
Per Curiam

Lezmond Mitchell has filed an emergency motion to stay his execution
pending appeal of the denial of his motion to strike his execution warrant, vacate
his execution, and enjoin violation of the district court’s original judgment. We
deny the motion because Mitchell has not carried his burden of demonstrating

Appendix A - 001

(2 of 17)
Case: 20-99009, 08/19/2020, ID: 11795665, DktEntry: 18-1, Page 2 of 13

either that he is likely to succeed on the merits or that it is probable that he would
suffer an irreparable injury in the absence of a stay.
I
Lezmond Mitchell was convicted of numerous offenses and sentenced to
death in September 2003.1 The district court’s judgment (the “Judgment”)
provides, “When the sentence is to be implemented, the Attorney General shall
release the defendant to the custody of the United States Marshal, who shall
supervise implementation of the sentence in the manner prescribed by the law of
the State of Arizona.”2 The parties agree that, for present purposes, there is no

1

We have described the facts of this case in detail in three prior opinions.
See generally Mitchell v. United States, 958 F.3d 775 (9th Cir. 2020); Mitchell v.
United States, 790 F.3d 881 (9th Cir. 2015); United States v. Mitchell, 502 F.3d
931 (9th Cir. 2007).
2

The district court amended the Judgment on January 8, 2004, but left the
provision quoted above unchanged.
2

Appendix A - 002

(3 of 17)
Case: 20-99009, 08/19/2020, ID: 11795665, DktEntry: 18-1, Page 3 of 13

meaningful difference between the language of the Judgment and the language of
the Federal Death Penalty Act (FDPA). See 18 U.S.C. § 3596(a).3
On July 25, 2019, T.J. Watson, the warden of the Federal Correctional
Complex at Terre Haute, Indiana, served Mitchell with a letter indicating that the
Bureau of Prisons had set an execution date of December 11, 2019.4 On October 4,
2019, however, we stayed Mitchell’s execution pending resolution of his third
appeal. Mitchell v. United States, No. 18-17031, ECF No. 26 (Oct. 4, 2019).
On July 29, 2020, after we rejected Mitchell’s appeal but before the mandate
issued, see Fed. R. App. P. 41(b), Watson served Mitchell with another letter

3

The FDPA provides, in pertinent part:

A person who has been sentenced to death pursuant to this chapter shall be
committed to the custody of the Attorney General until exhaustion of the
procedures for appeal of the judgment of conviction and for review of the
sentence. When the sentence is to be implemented, the Attorney General
shall release the person sentenced to death to the custody of a United States
marshal, who shall supervise implementation of the sentence in the manner
prescribed by the law of the State in which the sentence is imposed. If the
law of the State does not provide for implementation of a sentence of death,
the court shall designate another State, the law of which does provide for the
implementation of a sentence of death, and the sentence shall be
implemented in the latter State in the manner prescribed by such law.
18 U.S.C. § 3596(a).
4

On July 31, 2019, Watson served Mitchell with an amended letter that
corrected the name of the sentencing judge, which had been misstated on the prior
version.
3

Appendix A - 003

(4 of 17)
Case: 20-99009, 08/19/2020, ID: 11795665, DktEntry: 18-1, Page 4 of 13

indicating that the Bureau of Prisons had set a new execution date of August 26,
2020 (the “Execution Warrant”). The Execution Warrant states that it “serve[s] as
official notification that pursuant to [28 C.F.R. § 26.3(a)(1)], the Director of the
Federal Bureau of Prisons has set August 26, 2020, as the date for your execution
by lethal injection.”5
On August 6, 2020, Mitchell filed a motion in district court to strike the
Execution Warrant, vacate his execution date, and enjoin any violation of the
Judgment. Mitchell argued that if the Bureau of Prisons follows its execution
protocols his execution will not be “implement[ed] . . . in the manner prescribed by
the law of [Arizona]” and thus will be in violation of the Judgment and 18 U.S.C.
§ 3596(a). In support of his argument, Mitchell identified specific procedures set
forth in Arizona statutes, the Arizona Rules of Criminal Procedure, and the
Arizona Department of Corrections’s Department Order 710 (the “Department
Order Manual”). According to Mitchell, the Bureau of Prisons’ protocols are
inconsistent with or allow it to deviate from these Arizona procedures.

5

28 C.F.R. § 26.3(a)(1) establishes how the Bureau of Prisons will
determine the date and time for an execution.
4

Appendix A - 004

(5 of 17)
Case: 20-99009, 08/19/2020, ID: 11795665, DktEntry: 18-1, Page 5 of 13

The district court denied the motion. Mitchell filed a notice of appeal with
the district court and moved to stay his execution pending resolution of the appeal.
We heard argument on Tuesday, August 18, 2020.
II
We consider Mitchell’s motion for a stay pending appeal using the
“traditional test for stays” set out in Nken v. Holder, 556 U.S. 418, 433 (2009).
This test considers four factors: “(1) whether the stay applicant has made a strong
showing that he is likely to succeed on the merits; (2) whether the applicant will be
irreparably injured absent a stay; (3) whether issuance of the stay will substantially
injure the other parties interested in the proceeding; and (4) where the public
interest lies.” Id. at 434 (quoting Hilton v. Braunskill, 481 U.S. 770, 776 (1987)).
The party seeking the stay bears the burden of showing that these factors favor a
stay. Id. at 433–34. “The first two factors . . . are the most critical,” and the “mere
possibility” of success or irreparable injury is insufficient to satisfy them. Id. at
434 (cleaned up). As to likelihood of success, the movant must show a “reasonable
probability” or “fair prospect” of success. Leiva Perez v. Holder, 640 F.3d 962,
967 (9th Cir. 2011) (citation omitted). As to irreparable harm, the standard is
higher: the movant must demonstrate that irreparable harm is probable—as
opposed to merely possible—if the stay is not granted; that is, irreparable harm
5

Appendix A - 005

(6 of 17)
Case: 20-99009, 08/19/2020, ID: 11795665, DktEntry: 18-1, Page 6 of 13

must be “the more probable or likely outcome.” Id. at 968. We consider the final
two factors only “[o]nce an applicant satisfies the first two.” Nken, 556 U.S. at
435.
Mitchell argues that he is entitled to a stay pending appeal of the district
court’s order because the district court erred in denying his motion for injunctive
relief. Mitchell claims that on appeal of the district court’s order, he would have a
likelihood of success on the merits of his claim that inconsistencies between the
Bureau of Prisons’ protocol for implementing his execution and Arizona’s
procedures violate the Judgment and the FDPA. Mitchell likewise asserts that he
would prevail on the second injunctive relief factor, that he will suffer an
irreparable harm, due to the possibility that he “could be executed by means of an
illegal protocol.”
For purposes of Mitchell’s stay motion, we need not comprehensively
delineate the scope of the FDPA. Cf. In re Execution Protocol Cases, 955 F.3d
106 (D.C. Cir. 2020), cert. denied sub nom. Bourgeois v. Barr, No. (19A1050),
2020 WL 3492763 (U.S. June 29, 2020). We assume without deciding that the
Department Order Manual constitutes “law of the State” for purposes of the FDPA
and the Judgment. See 18 U.S.C. § 3596(a) (requiring the sentence to be
implemented “in the manner prescribed by the law of the State in which the
6

Appendix A - 006

(7 of 17)
Case: 20-99009, 08/19/2020, ID: 11795665, DktEntry: 18-1, Page 7 of 13

sentence is imposed”). In addition, we hold that procedures that do not effectuate
death fall outside the scope of 18 U.S.C. § 3596(a). See Peterson v. Barr, 965 F.3d
549, 554 (7th Cir. 2020). The FDPA incorporates only those state laws that
prescribe the manner for “implementation” of a death sentence. See 18 U.S.C.
§ 3596(a) (“When the sentence is to be implemented, the Attorney General shall
release the person sentenced to death to the custody of a United States marshal,
who shall supervise implementation of the sentence in the manner prescribed by
the law of the State in which the sentence is imposed.”). In this context,
“implement” means “to carry out” or “to give practical effect to and ensure of
actual fulfillment by concrete measures.” Implement, Webster’s Third New
International Dictionary 1134 (1961). Therefore, 18 U.S.C. § 3596(a) addresses, at
most, state laws that set forth procedures for giving practical effect to a sentence of
death. We therefore agree with the Seventh Circuit’s conclusion that, even under a
broad reading, the FDPA incorporates “only ‘those [state] procedures that
effectuate the death, including choice of lethal substances, dosages, vein-access
procedures, and medical-personnel requirements.’” Peterson, 965 F.3d at 554
(citation omitted).

7

Appendix A - 007

(8 of 17)
Case: 20-99009, 08/19/2020, ID: 11795665, DktEntry: 18-1, Page 8 of 13

In his stay motion, Mitchell identifies six purported inconsistencies between
the Bureau of Prisons’ execution protocol and the procedures in the Department
Order Manual.6 We consider each in turn.
First, he points to the Department Order Manual’s requirement that the IV
Team be “currently certified or licensed within the United States to place IV lines.”
The Bureau of Prisons’ protocol provides that “[q]ualified personnel includes
currently licensed physicians, nurses, EMTs, Paramedics, Phlebotomists, other
medically trained personnel, including those trained in the United States Military
having at least one year professional experience and other personnel with
6

In district court, Mitchell identified five additional purported
inconsistencies relating to: (1) the presence of witnesses and spiritual advisers,
Ariz. Rev. Stat. § 13-758; (2) notice of an execution date, Ariz. Rev. Stat. § 13759; (3) judicial postponement of execution dates upon a finding of impracticality,
Ariz. R. Crim. P. 31.23(c); (4) accommodations for defense counsel during the
execution, such as the provision of temporary office space and access to mobile
devices; and (5) discretion given the Director of the Arizona Department of
Corrections to modify the execution protocol. Because Mitchell has not raised
these purported inconsistencies in connection with his motion to stay his execution
pending appeal, we do not consider them. See Greenwood v. F.A.A., 28 F.3d 971,
977 (9th Cir. 1994). Moreover, the first four purported inconsistencies fall outside
the scope of 18 U.S.C. § 3596(a), because they are not pertinent to effectuating
death. See Peterson, 965 F.3d at 554.
At oral argument, Mitchell argued for the first time that the Bureau of
Prisons’ protocol calls for the use of a saline flush in a manner that is different
from the Department Order Manual. Mitchell forfeited any reliance on this
difference because it was neither raised to the district court nor raised in the
briefing. See Sierra Med. Servs. All. v. Kent, 883 F.3d 1216, 1223 (9th Cir. 2018).
8

Appendix A - 008

(9 of 17)
Case: 20-99009, 08/19/2020, ID: 11795665, DktEntry: 18-1, Page 9 of 13

necessary training and experience in a specific execution related function.” We see
little difference between these requirements; both require that the persons placing
IV lines have the appropriate qualifications. Given the substantial overlap between
the two protocols, Mitchell argues only that it is possible that the “[q]ualified
personnel” referred to in the Bureau of Prisons’ protocol might not be “currently
certified or licensed within the United States to place IV lines.”
As to the second and third examples of purported inconsistencies, Mitchell
points to the Department Order Manual’s requirements that “[a] central femoral
venous line will not be used unless the person placing the line is currently
qualified” to do so and that “[t]he IV Team shall be responsible for inserting either
peripheral IV catheters or a central femoral line as determined by the Director
acting upon the recommendation of the IV Team Leader.” The Bureau of Prisons’
protocol provides that a “suitable venous access line or lines will be inserted and
inspected by qualified personnel” and that “[t]he Director or designee shall
determine the method of venous access (1) based on the training and experience of
personnel establishing the intravenous access; (2) to comply with specific orders of
federal courts; or (3) based upon a recommendation from qualified personnel.”
Again, we see little difference between the protocols; both give the Director
discretion to determine, based on a recommendation from qualified personnel, the
9

Appendix A - 009

(10 of 17)
Case: 20-99009, 08/19/2020, ID: 11795665, DktEntry: 18-1, Page 10 of 13

method of venous access, and both protocols require that the venous access line be
placed by qualified personnel. At oral argument, Mitchell primarily focused on the
possibility that under the Bureau of Prisons’ protocol, the decision to insert a
peripheral IV catheter or a central femoral line may be made without a
recommendation of a person “currently certified or licensed within the United
States to place IV lines.” This argument therefore merges with his first
claim—that it is possible that the Bureau of Prisons may allow persons without the
proper qualifications to place IV lines.
Fourth, Mitchell points to the Department Order Manual’s requirement that a
chemical used in execution “have an expiration or beyond-use date that is after the
date that an execution is carried out.” The Bureau of Prisons’ protocol also
prohibits the use of expired drugs: its March 10, 2020 General Guidelines for
Compounding and Testing Pentobarbital Sodium for Use in Executions (the
“General Guidelines”) provide that an injectable solution is “available for use”
only if, among other things, “its expiration date has not passed.” Therefore, the
state and federal requirements are substantially the same. Mitchell argues only that
it is possible that the Bureau of Prisons will not comply with its protocol or will
make last-minute changes to its protocol.

10

Appendix A - 010

(11 of 17)
Case: 20-99009, 08/19/2020, ID: 11795665, DktEntry: 18-1, Page 11 of 13

Fifth, Mitchell points to the Department Order Manual’s requirement that
the “decision to use a compounded or non-compounded chemical . . . be provided
to the inmate and their counsel of record in writing at the time the state files a
request for Warrant of Execution in the Arizona Supreme Court.” Because the
Bureau of Prisons has made public its decision to use compounded Sodium
Pentobarbital in the General Guidelines, Mitchell has received notice that the
Bureau of Prisons intends to use compounded Pentobarbital Sodium to carry out
the execution.
Sixth, Mitchell points to the Department Order Manual’s requirement that
“[a] quantitative analysis of any compounded or non-compounded chemical to be
used in the execution shall be provided upon request within ten calendar days after
the state seeks a Warrant of Execution.” At oral argument, Mitchell conceded that
he had not requested such a quantitative analysis from the Bureau of Prisons, but
such information has been made readily available to him. The government
represented in district court that the “BOP has tested its compounded pentobarbital
for quality assurance,” and has publicly filed certificates of analysis and laboratory
reports regarding Pentobarbital Sodium in the United States District Court for the

11

Appendix A - 011

(12 of 17)
Case: 20-99009, 08/19/2020, ID: 11795665, DktEntry: 18-1, Page 12 of 13

District of Columbia. See In re BOP Execution Protocol Cases, 1:19-mc-00145TSC, ECF No. 39-1 at 975–1020; ECF No. 97-2 at 1–9.7
We are not persuaded by Mitchell’s arguments. The Bureau of Prisons’
protocol and the Department Order Manual procedures on which Mitchell relies
are largely indistinguishable. To the extent there is any difference between the
federal and Arizona procedures with respect to the first four examples, the Bureau
of Prisons has provided a declaration certifying that it will comply with those
procedures.8 As to the fifth and sixth examples, the Bureau of Prisons has
complied with the Department Order Manual’s procedures. Therefore, Mitchell
has not carried his burden of proving a “reasonable probability,” Leiva Perez, 640
F.3d at 967 (citations omitted), that his execution will be carried out in a manner
inconsistent with Arizona law (assuming that the Department Order Manual is state
law). It is not enough to show a “mere possibility” that the Bureau of Prisons
might use protocols inconsistent with Arizona procedures. Id. (cleaned up). Nor

7

This procedure arguably also falls outside the scope of 18 U.S.C.
§ 3596(a), because providing such information is not pertinent to the effectuation
of death. See Peterson, 965 F.3d at 554.
8

Mitchell filed a reply to the Bureau of Prisons’ declaration, to which he
attached a 37-page document setting forth additional purported inconsistencies
between the Bureau of Prisons’ protocol and Arizona procedures. Reliance on
these purported differences was forfeited. See supra note 6; Greenwood, 28 F.3d
at 977.
12

Appendix A - 012

(13 of 17)
Case: 20-99009, 08/19/2020, ID: 11795665, DktEntry: 18-1, Page 13 of 13

has Mitchell carried his burden of showing that it is more probable than not, id. at
968, that he will suffer any irreparable harm. Therefore, Mitchell is not entitled to
the “extraordinary remedy” of a stay pending appeal, Nken, 556 U.S. at 428
(citation omitted), and we do not address the final two factors, see id. at 435.
***
In sum, Mitchell has not carried his burden of demonstrating a likelihood of
success on the merits or that it is probable that he will suffer irreparable harm, and
therefore he is not entitled to a stay or to the underlying injunctive relief he seeks.
We also recognize that the Supreme Court has instructed us that last-minute stays
of executions “should be the extreme exception, not the norm.” Barr v. Lee, No.
20A8, 2020 WL 3964985, at *2 (U.S. July 14, 2020) (citation omitted). We
therefore deny Mitchell’s motion for a stay of execution pending appeal and affirm
the district court’s order denying his motion to strike the Execution Warrant,
vacate the execution date, or enjoin violation of the Judgment.
IT IS SO ORDERED.

13

Appendix A - 013

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 1 of 16

1

WO

2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
United States of America,

9

Plaintiff,

10
11

v.

12

Lezmond Mitchell,

13

No. CR-01-01062-001-PCT-DGC
ORDER

Defendant.

14
15

Defendant Lezmond Mitchell has filed a motion to strike his execution warrant,

16

vacate his execution date, and enjoin violation of this Court’s January 8, 2004 Judgment

17

(Doc. 606), and a motion to stay his execution pending resolution of the first motion

18

(Doc. 609). The United States has filed responses opposing both motions (Docs. 611, 612),

19

and Mr. Mitchell has filed a reply (Doc. 613). A hearing on the motions was held on

20

August 12, 2020. The Court will deny both motions.

21

I.

Procedural History.

22

In 2003, a jury convicted Mr. Mitchell of first-degree murder, felony murder,

23

carjacking resulting in death, and related federal crimes arising out of the 2001 kidnapping

24

and murder of a 63-year-old grandmother and her 9-year-old granddaughter.1 The jury

25

unanimously recommended a sentence of death on the federal carjacking count.

26

On September 15, 2003, Judge Mary Murguia sentenced Mr. Mitchell to death and

27

issued a Judgment that included the following provision:

28

1

A detailed discussion of the facts surrounding the crimes and Mr. Mitchell’s trial can be
found at United States v. Mitchell, 502 F.3d 931, 942 (9th Cir. 2007).

Appendix B - 014

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 2 of 16

1

Pursuant to the Federal Death Penalty Act of 1994, specifically, Section 3594
of Title 18 of the United States Code, pursuant to the jury’s special findings
returned on May 20, 2003, and pursuant to the jury’s unanimous vote
recommending that the defendant be sentenced to death, IT IS THE
JUDGMENT OF THIS COURT THAT the defendant, Lezmond Charles
Mitchell, be sentenced to death on Count Two of the Second Superseding
Indictment. The judgment and death sentence on Count Two is supported by
independent verdicts with regard to each victim. Furthermore, pursuant to
Title 18, Section 3596 of the United States Code, the defendant is hereby
committed to the custody of the Attorney General of the United States until
exhaustion of the procedures for appeal of the judgment and conviction and
for review of the sentence. When the sentence is to be implemented, the
Attorney General shall release the defendant to the custody of the United
States Marshal, who shall supervise implementation of the sentence in the
manner prescribed by the law of the State of Arizona.

2
3
4
5
6
7
8
9
10
11
12

Doc. 425. The Court subsequently amended its Judgment on January 8, 2004, but left the

13

above portion of the order unchanged. Doc. 466. The Judgment was affirmed on appeal

14

and has not been altered as a result of Mr. Mitchell’s subsequent habeas petitions. 2

15

On July 25, 2019, T.J. Watson, the warden of the Federal Correctional Complex at

16

Terre Haute, Indiana, served Mr. Mitchell with a letter indicating that, pursuant to 28

17

C.F.R. § 26.3(a)(1), the Director of the Bureau of Prisons (“BOP”) had set December 11,

18

2019, as Mr. Mitchell’s execution date (“2019 Letter”). The same day, in four pending

19

federal lethal injection lawsuits in the District Court for the District of Columbia, the

20

Government filed a notice indicating that it had adopted a revised lethal injection protocol

21

for federal death penalty sentences. Doc. 606-1, BOP Addendum.

22

On October 4, 2019, Mr. Mitchell’s execution was stayed by the Ninth Circuit

23

pending its consideration of his appeal from this Court’s denial of a Rule 60(b) motion.

24

Mitchell v. United States, No. 18-17031 (9th Cir. Oct. 4, 2019), ECF No. 26. The Ninth

25

Circuit ultimately affirmed the Court’s denial. Id. (Apr. 3, 2020), ECF No. 37.

26

On July 29, 2020, Warden Watson served Mr. Mitchell with a letter stating that the

27

BOP had set a new execution date of August 26, 2020 (“2020 Letter”). Doc. 606-2. Eight

28

2

Throughout his motion, Mr. Mitchell refers to the Judgment date as January 8, 2003. See
Doc. 606. The amended Judgment was entered on January 8, 2004. Doc. 466.
-2-

Appendix B - 015

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 3 of 16

1

days later, Mr. Mitchell filed his motion to strike the execution warrant and vacate his

2

execution date. Doc. 606.

3

II.

Motion to Stay.

4

Mr. Mitchell asks the Court to stay his execution “until the resolution of his motion”

5

to vacate the execution date. Doc. 609 at 15.3 Because the Court resolves that motion in

6

this order, it will deny the motion to stay as moot.4

7

III.

Motion to Strike, Vacate, and Enjoin.

8

Mr. Mitchell asks this Court to vacate the August 26, 2020 execution date and enjoin

9

the government from attempting to execute him “in a manner that violates this Court’s

10

judgment.” Doc. 606 at 6.

11

A.

12

The government asserts that Mr. Mitchell’s motion is untimely. It argues that he

13

“has known about the federal government’s current execution protocol since July 25, 2019,

14

when the Department of Justice adopted it, filed it in the District of Columbia litigation

15

challenging the protocol’s validity, and delivered him notice of the United States’ intent to

16

carry out his sentence pursuant to federal regulations.” Doc. 611 at 3. The government

17

asserts “[t]here is no reason Mitchell could not have raised this issue a year ago, when his

18

execution was first scheduled, which would have allowed for fair briefing, court

19

consideration, and reasonable appeals.” Id. at 5.

Timeliness.

20

Mr. Mitchell received notice of his December 2019 execution date on July 25, 2019,

21

while he had an appeal pending before the Ninth Circuit related to this Court’s denial of

22

his Rule 60(b) motion. Shortly thereafter, on August 5, 2019, he asked this Court to stay

23

his execution pending resolution of the appeal. Motion to Stay Execution, Mitchell v.

24
25

This order cites to page numbers placed at the top of each page by the Court’s electronic
case filing system, not to page numbers in the original documents.

26

4

3

27
28

During the hearing, counsel for Mr. Mitchell asked the Court to stay his execution pending
appeal of the Court’s decision. That request was not made in Mr. Mitchell’s motion (Doc.
609), and the standard for such a stay has not been briefed by the parties. The Court
accordingly will not address the request. Mr. Mitchell can take up the stay question with
the Ninth Circuit, as he did in his previous appeal from this Court.

-3-

Appendix B - 016

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 4 of 16

1

United States, No. 3:09-cv-8089-DGC (D. Ariz. Aug. 5, 2019), ECF. No. 84. The Court

2

denied the motion on jurisdictional grounds, id. (Aug. 30, 2019), ECF. No. 92, and Mr.

3

Mitchell filed a motion to stay his execution in the Ninth Circuit on September 9, 2019.

4

That motion was granted on October 4, 2019. Mitchell v. United States, No. 18-17031 (9th

5

Cir. Oct. 4, 2019), ECF No. 26. The Court cannot conclude that Mr. Mitchell was required

6

to proceed with additional challenges to his execution when it was stayed. Mr. Mitchell

7

received notice of his new execution date on July 29, 2020, and filed this motion days later.

8

Additionally, at a status conference on August 15, 2019, after issuance of the 2019

9

Letter, the government acknowledged to the Court that its intent was to conduct the

10

execution in Indiana, but stated that it was “not prepared to respond” to the Court’s query

11

about whether the execution would follow Arizona state procedures. Doc. 606-6 at 084–

12

85; RT 08/15/19 at 10–11. Thus, the issue raised in this motion – whether the government

13

can legally conduct Mr. Mitchell’s execution without following Arizona procedures – was

14

not ripe until Mr. Mitchell was served with the 2020 Letter.
Meaning of the Federal Death Penalty Act (“FDPA”).

15

B.

16

Congress enacted the FDPA in 1994. The statute looks to state law for the “manner”

17
18
19
20
21
22
23
24

of implementing federal death sentences:
When the sentence is to be implemented, the Attorney General shall release
the person sentenced to death to the custody of a United States marshal, who
shall supervise implementation of the sentence in the manner prescribed by
the law of the State in which the sentence is imposed. If the law of the State
does not provide for implementation of a sentence of death, the court shall
designate another State, the law of which does provide for the
implementation of a sentence of death, and the sentence shall be
implemented in the latter State in the manner prescribed by such law.
18 U.S.C. § 3596(a) (emphasis added).

25

The Judgment in this case uses essentially the same language. It provides that the

26

execution shall be conducted “in the manner prescribed by the law of the State of Arizona.”

27

Doc. 466.

28

-4-

Appendix B - 017

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 5 of 16

1

The parties dispute the meaning of these phrases. The government maintains that

2

by requiring it to implement Mr. Mitchell’s execution “in the manner prescribed” by

3

Arizona law, the FDPA merely requires it to use Arizona’s “top-line” choice of execution

4

method – lethal injection. Doc. 611 at 6–13. Mr. Mitchell argues that “implementation

5

. . . in the manner prescribed” by Arizona law incorporates all of Arizona’s detailed

6

execution procedures. Doc. 606 at 9. And because the execution protocol issued by the

7

federal government in 2019 (“2019 Protocol”) does not follow those procedures, Mr.

8

Mitchell contends that his execution under the 2019 Protocol would violate the FDPA. Id.5

9

Both parties rely heavily on a recent decision of the D.C. Circuit, In re Fed. Bureau

10

of Prisons’ Execution Protocol Cases (Execution Protocol Cases), 955 F.3d 106 (D.C. Cir.

11

2020), cert. denied sub nom. Bourgeois v. Barr, No. (19A1050), 2020 WL 3492763 (U.S.

12

June 29, 2020). The plaintiffs in that case were four federal death row inmates who

13

challenged the 2019 Protocol. The district court preliminarily enjoined their executions,

14

holding that “the FDPA gives decision-making authority regarding ‘implementation’” of

15

federal death sentences to states, and, therefore, the 2019 Protocol’s uniform federal

16

implementation procedure is “not authorized by the FDPA.” In re Fed. Bureau of Prisons’

17

Execution Protocol Cases, No. 1:19-mc-145, 2019 WL 6691814, at *4, *7 (D.D.C. Nov.

18

20, 2019). The court found that the FDPA language requiring executions to be conducted

19

“in the manner prescribed” by state law applied not just to the general execution method,

20

but also to “procedural details” like how the “catheter is to be inserted.” Id. at *4, *6.

21

The D.C. Circuit reversed, with two members of the panel finding that the district

22

court misconstrued the FDPA. Execution Protocol Cases, 955 F.3d at 108. The circuit

23

court summarized its core holding as follows:
Judge Katsas concludes that the FDPA regulates only the top-line choice
among execution methods, such as the choice to use lethal injection instead
of hanging or electrocution. Judge Rao concludes that the FDPA also
requires the federal government to follow execution procedures set forth in

24
25
26
27
28

5

Although Mr. Mitchell asserts that his execution would violate both the FDPA and the
Court’s Judgment, his legal analysis relies entirely on the meaning of the FDPA. Neither
he nor the government argues that the Judgment has a different meaning. This order
accordingly focuses entirely on the FDPA.
-5-

Appendix B - 018

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 6 of 16

1
2
3
4
5

state statutes and regulations, but not execution procedures set forth in less
formal state execution protocols. Judge Rao further concludes that the
federal protocol allows the federal government to depart from its procedures
as necessary to conform to state statutes and regulations. On either of their
views, the plaintiffs’ primary FDPA claim is without merit.
Execution Protocol Cases, 955 F.3d at 112.

6

Judge Tatel dissented. He agreed with Judge Rao “that the term ‘manner’ refers to

7

more than just general execution method,” but concluded that the statute also incorporates

8

informal execution protocols if “issued by state prison officials pursuant to state law.” Id.

9

at 146 (Tatel, J., dissenting).

10

Mr. Mitchell cites the opinions of Judges Rao and Tatel to support his view that

11

“manner” in the FDPA means more than the top-line method of execution. Doc. 606 at 11.

12

On this issue, the Court agrees with Mr. Mitchell.

13

The starting point is the Crimes Act of 1790, which specified that “the manner of

14

inflicting the punishment of death, shall be by hanging the person convicted by the neck

15

until dead.” Crimes Act of 1790, ch. 9, § 33, 1 Stat. 112, 119. “Manner” as used in this

16

phrase clearly means only the general method of execution – hanging. Judge Katsas

17

tracked the word “manner” from the 1790 Act to the 1937 statute that replaced it. 955 F.3d

18

at 115–18 (Katsas, J., concurring). The 1937 statute continued to use the word “manner,”

19

but did not specify a single method of execution. Instead, it provided that “[t]he manner

20

of inflicting the punishment of death shall be the manner prescribed by the laws of the State

21

within which the sentence is imposed.” See An Act To Provide for the Manner of Inflicting

22

the Punishment of Death, Pub. L. No. 75-156, 50 Stat. 304 (1937). Judge Katsas reasoned

23

that because “manner” meant the general method of execution in the 1790 statute, it must

24

also have meant the general method of execution in the 1937 statute, particularly because

25

both statutes refer to “the manner of inflicting the punishment of death.” 955 F.3d at 116.

26

The government and Judge Katsas also note that the Supreme Court in Andres v. United

27

States, 333 U.S. 740, 745 & n.6 (1948), stated that the 1937 statute was “prompted by the

28

fact that ‘Many States . . . use(d) more humane methods of execution, such as electrocution,

-6-

Appendix B - 019

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 7 of 16

1

or gas’” and “it appear(ed) desirable for the Federal Government likewise to change its

2

law in this respect.” Id. (quoting H.Rep. No. 164, 75th Cong., 1st Sess., 1 (1937))

3

(emphases added).

4

Although this view has some merit, the Court ultimately finds it unpersuasive

5

because the 1937 statute fundamentally changed the way in which federal death penalty

6

sentences were carried out. It shifted the focus from a single federal method – hanging –

7

to a range of approaches used by the States. And Congress’s intent to adopt more humane

8

methods of execution certainly does not exclude the possibility that Congress intended to

9

incorporate details of state executions that made them more humane. The 1937 Act further

10

stated that the “marshal charged with the execution of the sentence may use available State

11

or local facilities and the services of an appropriate State or local official” to perform the

12

execution. An Act To Provide for the Manner of Inflicting the Punishment of Death, Pub.

13

L. No. 75-156, 50 Stat. 304 (1937). This contemplated at least the possibility of a

14

wholesale use of state execution procedures.

15

In fact, that is what happened. As Judge Rao explained:

16

In practice, . . . the federal government incorporated more than the state’s
method of execution when it carried out executions under the 1937 statute.
The government concedes that nearly all executions conducted under the
1937 statute took place in state facilities. Presumably, those executions were
carried out in accordance with state law and possibly with other state
procedures. DOJ notes that three executions under the 1937 statute took
place in federal facilities, but DOJ is unable to identify a single way in which
the executions were otherwise inconsistent with state law.

17
18
19
20
21
22

955 F.3d at 137 (Rao, J., concurring) (citation omitted).

23

To further support Judge Katsas’s view, the government cites two newspaper

24

articles to suggest that federal procedures were in fact used in executions under the 1937

25

Act. One article stated that inmates were to “be executed by whatever method is prescribed

26

by the law of the State,” but that the Department of Justice (“DOJ”) would provide “all

27

U.S. Marshals instructions for carrying out executions” and those procedures would govern

28

“[u]nless [a] court specifies otherwise.” Doc. 611-4 (Associated Press, U.S. Arranging To

-7-

Appendix B - 020

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 8 of 16

1

Execute Five, June 17, 1938). Another article noted that the government’s supervision

2

over an execution was “so strict” that the local sheriff “was forced to obtain special

3

permission from Washington to be present.” Doc. 611-5 (United Press, Seadlund Will Die

4

Tonight, July 13, 1938).

5

These brief accounts are not only hearsay, they lack the detail necessary to

6

determine what procedures were actually used in the executions. The government relies

7

on Norwegian Nitrogen Prods. Co. v. United States, 288 U.S. 294, 315 (1933), for the

8

proposition that agency “practice” has “peculiar weight when it involves a

9

contemporaneous construction of a statute by [those] charged with the responsibility of

10

setting its machinery in motion.” Id.; Doc. 611 at 11–12. But the Court is not persuaded

11

that two short newspaper articles can be relied upon to establish the execution practice

12

under the 1937 statute, particularly in light of the government concessions cited by Judge

13

Rao above and a 1994 letter from Attorney General Janet Reno described below.

14

The government also cites a Federal Bureau of Prisons’ 1942 Manual of Policies

15

and Procedures which stated that the 1937 Act’s “manner” provision “refers to the method

16

of imposing death, whether by hanging, electrocution, or otherwise, and not to other

17

procedures incident to the execution prescribed by the State law.” See Doc. 611-6. But

18

this statement is not “practice” as required by Norwegian Nitrogen, and the record before

19

the D.C. Circuit suggested that virtually all executions under the 1937 Act were held in

20

state facilities. 955 F.3d at 137 (Rao, J., concurring); id. at 148 (Tatel, J., dissenting).

21

The continuing history provides additional insight. The 1937 statute was repealed

22

by the Sentencing Reform Act of 1984, Pub. L. No. 98-473, § 212, 98 Stat. 1987, and for

23

the next several years the United States had no statute that specified a method for federal

24

death sentences. DOJ promulgated regulations in 1993 that adopted lethal injection as the

25

uniform federal execution method with specific federal procedures. 58 Fed. Reg. 4898,

26

4901–02 (1993) (codified at 28 C.F.R. § 26.3). At the time, DOJ hypothesized “that

27

Congress might have repealed the 1937 statute because it ‘no longer wanted the federal

28

method of execution dependent on procedures in the states, some of which were

-8-

Appendix B - 021

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 9 of 16

1

increasingly under constitutional challenge.’” 58 Fed. Reg. at 4,899. This statement again

2

suggests that state procedures were used under the 1937 Act.

3

Significantly, when Congress passed the FDPA in 1994, it did not choose to retain

4

the single-method approach of the existing DOJ regulations. Congress chose instead to

5

return to the 1937 model, providing that the “United States marshal . . . shall supervise

6

implementation of the [death] sentence in the manner prescribed by the law of the State in

7

which the sentence is imposed.” 18 U.S.C. § 3596(a). Attorney General Janet Reno wrote

8

to Congress shortly before the FDPA was passed and noted that it “contemplate[d] a return

9

to an earlier system in which the Federal Government does not directly carry out

10

executions, but makes arrangements with states to carry out capital sentences in Federal

11

cases.” See H.R. Rep. No. 104-23, at 22 (1995) (quoting Letter from Attorney General

12

Janet Reno to Hon. Joseph R. Biden, Jr., at 3–4 (June 13, 1994)). Her statement confirms

13

that the federal government’s practice under the 1937 Act was to use state procedures for

14

federal executions. She then “recommend[ed] amendment of the legislation to perpetuate

15

the current approach, under which the execution of capital sentences in Federal cases is

16

carried out by Federal officials pursuant to uniform regulations issued by the Attorney

17

General.” Id. Congress disregarded her request and returned to the 1937 model.

18

In light of this history, the Court cannot conclude that the 1790 use of the word

19

“manner” remained intact until it found its way into the FDPA. Congress deliberately

20

chose in 1994 to revert from a single-method execution approach, like that adopted in 1790

21

and in the 1993 DOJ regulations, to the state-focused approach of the 1937 statute. And it

22

did so in the face of Attorney General Reno’s assertion that federal executions under the

23

1937 statute had occurred in state facilities. This history suggests that Congress knowingly

24

adopted an approach in the FDPA that looked to state law and procedures for the means of

25

execution. It does not support the government’s contention that the FDPA entrusted all

26

execution details to federal officers and looked to state law solely for the general method

27

of execution.

28

///

-9-

Appendix B - 022

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 10 of 16

To What State Law Does the FDPA Look?

1

C.

2

The Court must next decide what level of state procedures Congress intended to

3

embrace in the FDPA. Judges Rao and Tatel differ on what constitutes the “law of the

4

State” for purposes § 3596(a). Judge Rao would limit it to execution procedures set forth

5

in state “statutes and formal regulations.” 955 F.3d at 129 (Rao, J. concurring). In her

6

opinion, by directing the federal government to look to the law of the State, the FDPA

7

requires the government to “follow all procedures prescribed by state statutes and formal

8

regulations, but no more.” Id. at 134 (Rao, J., concurring). Judge Tatel takes a more

9

expansive view, finding that the “law of the State” also includes “protocols issued by state

10

prison officials pursuant to state law.” Id. at 146 (Tatel, J., dissenting). The Court agrees

11

with Judge Rao.

12

Judge Tatel writes:

13

The “law” of each state, then, requires executions to be implemented
according to procedures determined by state corrections officials, who, in
turn, have set forth such procedures in execution protocols. In other words,
“by law,” each state directed its prison officials to develop execution
procedures, and “by law,” those officials established such procedures and set
them forth in execution protocols. Accordingly, the protocols have been
“prescribed by . . . law.”

14
15
16
17
18

955 F.3d at 147 (Tatel, J., dissenting).

19

This analysis places too little weight on the key word “prescribed.” Under the

20

FDPA, the state law must not just authorize or direct that the manner of death be set forth

21

by correction officials in a state protocol, the state law must “prescribe[]” the manner of

22

death to be followed in federal executions: “[the marshal] shall supervise implementation

23

of the sentence in the manner prescribed by the law of the State in which the sentence is

24

imposed.” 18 U.S.C. § 3956(a) (emphasis added).

25

“Prescribe” means “to lay down a rule,” to “dictate.” Merriam-Webster.com

26

Dictionary, Merriam-Webster, https://www.merriam-webster.com/dictionary/prescribe

27

(last visited Aug. 12, 2020). It means “to tell someone what they must have or do.”

28

Cambridge Dictionary, https://dictionary.cambridge.org/us/dictionary/english/prescribe

- 10 -

Appendix B - 023

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 11 of 16

1

(last visited Aug 12, 2020). A state statute that, in the words of Judge Tatel, merely

2

“direct[s] its prison officials to develop execution procedures” does not “prescribe,” “lay

3

down,” or “dictate” those procedures. 955 F.3d at 147 (Tatel, J., dissenting).

4

To support his interpretation, Judge Tatel looks to the purpose of the FDPA – which

5

he equates to the purpose of the 1937 Act from which its language was taken – which is to

6

make executions more humane by adopting the more advanced procedures used by the

7

States. 955 F.3d at 148 (Tatel, J., dissenting). Judge Rao correctly responds, however, that

8

courts cannot depart from the plain meaning of a statute (in this case, the word

9

“prescribed”) in the interest of more fully promoting the statute’s purpose. Id. at 140–41

10

(Rao, J., concurring). “[O]ur function [is] to give the statute the effect its language

11

suggests,” not to further whatever “admirable purposes it might be used to achieve.”

12

Morrison v. Nat’l Australia Bank Ltd., 561 U.S. 247, 270 (2010). “[I]t frustrates rather

13

than effectuates legislative intent simplistically to assume that whatever furthers the

14

statute’s primary objective must be the law.” Pension Ben. Guar. Corp. v. LTV Corp., 496

15

U.S. 633, 646–47 (1990) (emphasis in original).

16

In concluding that state “law” does not include informal execution protocols, Judge

17

Rao relies on Chrysler Corp. v. Brown, 441 U.S. 281 (1979). In that case the Supreme

18

Court considered a provision of the Trade Secrets Act that protected confidential

19

information by prohibiting its disclosure unless “‘authorized by law.’” Id. at 294 (quoting

20

18 U.S.C. § 1905). The Supreme Court held that a regulation issued pursuant to an

21

agency’s “housekeeping” statute and without notice-and-comment procedures did not

22

qualify as “law” under the Act. Id. at 309–16. From this, Judge Rao concludes that the

23

word “law” in § 3596(a) does not include informal state protocols, but is limited to “binding

24

law prescribed through formal lawmaking procedures.” 955 F.3d at 132 (Rao, J.,

25

concurring).

26

Judge Tatel responds that “prescribed by law” and similar phrases appear more than

27

1,200 times in the United States Code and have no single meaning, but must instead be

28

interpreted in context. 955 F.3d at 149 (Tatel, J., dissenting). He then turns again to the

- 11 -

Appendix B - 024

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 12 of 16

1

overall purpose of the FDPA – to adopt more humane state execution procedures – and

2

concludes that excluding state protocols from the requirement of the FDPA would defeat

3

the statute’s purpose. But this analysis glosses over the actual language at issue –

4

“prescribed by law.” Judge Tatel does not assert that informal state protocols constitute

5

“law,” and, as Judge Rao notes, Judge Tatel cites no case where such informal procedures

6

have been held to have the force of law. 955 F.3d at 143 n.15 (Rao, J., concurring).

7

Because the FDPA directs the federal government to impose the death penalty “in

8

the manner prescribed by the law of the State,” only those execution procedures actually

9

prescribed by state law – state statutes and regulations that have the force and effect of law

10

– must be applied in a federal execution. Procedures contained in less formal state

11

protocols simply are not “the law of the State.” 18 U.S.C. § 3596(a).
What is Arizona “Law” for Purposes of the FDPA?

12

D.

13

Mr. Mitchell asserts that Arizona’s execution protocol, found in Arizona

14

Department of Corrections, Rehabilitation and Reentry (“ADC”) Department Order 710

15

(“DO 710”), constitutes Arizona “law” within the meaning of the FDPA, and that the

16

government therefore is required to comply with it fully during his execution. He makes

17

two arguments in support.

18

First, Mr. Mitchell’s motion notes briefly that an “Arizona statute provides that the

19

method of execution is lethal injection to occur ‘under the supervision of the state

20

department of corrections.’” Doc. 606 at 14 (quoting A.R.S. § 13-757). Mr. Mitchell

21

asserts that ADC drafted DO 710 “[p]ursuant to that authority,” and, “[a]ccordingly, these

22

protocols are part of Arizona law.” Id. But state statutes frequently direct state agencies

23

to take action, and Mr. Mitchell cites no authority for the proposition that a protocol issued

24

in response to such a legislative direction automatically constitutes state law. Certainly

25

A.R.S. § 13-757, which states only that executions are to occur “under the direction” of

26

ADC, does not say that all procedures adopted by ADC therefore have the force of law.

27

Mr. Mitchell also notes that DO 710 cites various statutes. Id. (citing Doc. 606-3 at

28

25). But the statutes cited in DO 710 do not concern the legal effect of the department

- 12 -

Appendix B - 025

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 13 of 16

1

order. Instead, they include provisions defining the word “person” (A.R.S. §§ 1-215(28),

2

13-105(30)); stating that a person sentenced before November 23, 1992, may choose either

3

lethal injection or lethal gas as the means of execution (A.R.S. § 13-757(B)); providing

4

that the identities of executioners are kept confidential (A.R.S. § 13-757(C)); stating who

5

may be present at executions (A.R.S. § 13-758); requiring that the ADC director provide a

6

return of warrant to the courts after an execution (A.R.S. § 13-759); and addressing the

7

competency of persons to be executed (A.R.S. §§ 13-4021 through 13-4026).6 Doc. 606-

8

3 at 25. None of these statutes states that department orders issued by ADC have the force

9

and effect of law; indeed, none directly concerns ADC’s issuance of orders. They instead

10

are statutes that touch on topics addressed in DO 710. Mr. Mitchell cites no authority

11

suggesting that mere citation of these statutes somehow makes DO 710 part of Arizona

12

law.7

13

Second, Mr. Mitchell notes that prior versions of DO 710 contained language stating

14

that they did not “create any enforceable legal rights or obligations.” In 2017, in a lawsuit

15

pending in this Court, ADC entered into a settlement agreement with the plaintiffs,

16

including several death row inmates, and agreed to exclude such language from future

17

protocols. Doc. 606-4, Stipulation and Order from First Amendment Coalition of Arizona,

18

Inc. v. Ryan, D. Ariz. Case No. 2:14-cv-01447-NVW. Mr. Mitchell contends that this

19

stipulation distinguishes DO 710 from the protocols litigated in the D.C. Circuit, which,

20
6

21
22

The list also includes a citation to Ariz. R. Crim. P. 31.17(c)(3), which at the time DC 710
was issued apparently concerned notifications to the Arizona Supreme Court about the date
and time of execution. That provision now appears to be in Rule 31.23.
7

23
24
25
26
27
28

Mr. Mitchell never addresses Arizona administrative law concerning agency rulemaking,
such as the Arizona Administrative Procedures Act, A.R.S. § 41-1001, et seq., to show that
DO 710 is an agency regulation with the force and effect of law. His motion and reply
brief are entirely silent on this subject. See Docs. 606, 613. The Court also notes that DO
710 is one of more than 125 Department Orders issued by ADC. See https://corrections.
az.gov/reports-documents/adcrr-policies/department-orders-index (last visited August 11,
2020). These orders cover a wide variety of prison-related topics, from housing to
visitation to medical care. Id. Department Order 101 sets the procedures for drafting and
reviewing Department Orders, and suggests that the process is entirely internal. See
https://corrections.az.gov/sites/default/files/policies/100/0101071320.pdf (last visited
August 11, 2020). The Court further notes that the ADC Department Orders are not
included in the Arizona Administrative Code. See https://apps.azsos.gov/publicservices/
Title_05/5-01.pdf (last visited August 11, 2020). Mr. Mitchell addresses none of this.
- 13 -

Appendix B - 026

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 14 of 16

1

because they “do not appear to have the binding force of law, cannot be deemed part of the

2

‘law of the State.’” 955 F.3d at 143 n.15 (Rao, J., concurring.) Mr. Mitchell argues,

3

therefore, that the “Arizona law” governing the manner of state executions includes DO

4

710. Doc. 606 at 14.

5

The Court is not persuaded. The First Amendment Coalition case was resolved by

6

a Settlement Agreement – a contract – which the parties agreed could be enforced by other

7

persons sentenced to death in Arizona. The Settlement Agreement provided:

8
9
10
11
12

[T]he parties intend this Stipulated Settlement Agreement to be enforceable
by, and for the benefit of, not only Plaintiffs but also all current and future
prisoners sentenced to death in the State of Arizona (“Condemned Prisoner
Beneficiaries”), who are express and intended third-party beneficiaries of
this Stipulated Settlement Agreement[.]
Doc. 606-4 at 7.

13

The remaining provisions of the stipulation make clear that the parties viewed the

14

Settlement Agreement as a binding contract between ADC and death row inmates. It

15

identifies seven specific “covenants” by ADC that are enforceable (id. at 4–8), provides

16

that the court may take action upon “breach” of the Settlement Agreement (id. at 8),

17

provides that the case can be reopened at the request of a third-party beneficiary (id. at 7–

18

8), and provides that “an injunction shall immediately issue in this action or in a separate

19

action for breach of this Stipulated Settlement Agreement” (id. at 10). In short, the First

20

Amendment Coalition case was resolved in the same manner as many other lawsuits – by

21

a binding contract that could be enforced in court by specific parties and third-party

22

beneficiaries.

23

The stipulation says nothing about creating Arizona law, and Mr. Mitchell cites no

24

authority for the proposition that a settlement agreement between litigants creates Arizona

25

law. True, the Settlement Agreement includes a covenant that present and future versions

26

of DO 710 would not say that they do not “create any legally enforceable rights or

27

obligations” (id. at 3), but the reason for this covenant is readily apparent – the parties

28

- 14 -

Appendix B - 027

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 15 of 16

1

intended to establish legally enforceable contract rights and such language would be

2

inconsistent with their agreement.

3

The Court cannot conclude that the Settlement Agreement makes DO 710 the “law”

4

of Arizona within the meaning of the FDPA. The settlement is a contract, not a statute or

5

formal regulation. Mr. Mitchell cites nothing to suggest that Congress intended “the law

6

of the State” to include contracts. The Court accordingly holds, for purposes of the FDPA,

7

that the “law” of Arizona includes Arizona’s death penalty statutes and criminal rules, but

8

that Mr. Mitchell has failed to show that it also includes DO 710.8

9

E.

What Does Arizona Law Require in this Case?

10

To resolve the merits of Mr. Mitchell’s motion, the Court must compare the

11

requirement of the BOP’s 2019 Protocol to Arizona’s death penalty statutes and criminal

12

rules to see if there is inconsistency. Mr. Mitchell cites three differences. Doc. 606 at 17.

13

First, under Arizona law, a prisoner is entitled to 35 days’ notice of his execution date,

14

A.R.S. § 13-759, while the BOP protocol provides only 20 days’ notice, 28 C.F.R.

15

§ 26.4(a). Second, a prisoner may have five witnesses at his execution under Arizona law,

16

A.R.S. § 13-758, but only three under the BOP protocol, 28 C.F.R. § 26.4(c–d). Third,

17

Arizona Rule of Criminal Procedure 31.23 allows for up to a 60-day delay if the execution

18

is deemed by the Arizona Supreme Court to be “impracticable,” while the BOP protocol

19

permits delay only upon a court-ordered stay, 28 C.F.R. § 26.3(a)(1).

20

Although these three state procedures differ from the 2019 Protocol, the Court

21

concludes that they are not the kinds of procedures incorporated by the FDPA. The FDPA

22

8

23
24
25
26
27
28

Counsel for Mr. Mitchell argued at the hearing that not requiring the government to follow
state protocol procedures in this case would create a “paradox” between the first and second
sentences of § 3596(a). The Court does not see the paradox. The first sentence, which
applies when a defendant is convicted in a state such as Arizona that imposes the death
penalty, provides that the marshal “shall supervise implementation of the sentence in the
manner prescribed by the law of the State[.]” 18 U.S.C. § 3596(a). The second sentence,
which applies when a defendant is convicted in a state that does not impose the death
penalty, provides that “the court shall designate another State, the law of which does
provide for the implementation of a sentence of death, and the sentence shall be
implemented in the latter State in the manner prescribed by such law.” Id. Both sentences
require that the government implement the sentence “in the manner prescribed” by the
state’s law. Thus, the Court’s interpretation of that phrase would apply in both sentences,
producing no paradox.

- 15 -

Appendix B - 028

Case 3:01-cr-01062-DGC Document 618 Filed 08/13/20 Page 16 of 16

1

calls for “implementation of the sentence in the manner prescribed by the law of the

2

State[.]” 18 U.S.C. § 3596(a) (emphasis added). The sentence, of course, is death, and the

3

“manner” of “implementation” of that sentence is the procedures by which death is caused.

4

The Court cannot conclude that matters unrelated to the procedures for effectuating death

5

constitute the manner of implementing the death sentence as referred to in the FDPA. Other

6

judges agree. A unanimous panel of the Seventh Circuit recently held that “Section 3596(a)

7

cannot be reasonably read to incorporate every aspect of the forum state’s law regarding

8

execution procedure. We do not understand the word ‘manner’ as used in § 3596(a) to

9

refer to details such as witnesses. The word concerns how the sentence is carried out, not

10

who watches.” Peterson v. Barr, 965 F.3d 549, 554 (7th Cir. 2020). In the D.C. Circuit

11

case, even Judge Tatel found that § 3596(a) requires the federal government to follow only

12

“those procedures that effectuate the death, including choice of lethal substances, dosages,

13

vein-access procedures, and medical-personnel requirements.” Execution Protocol Cases,

14

955 F.3d at 151 (Tatel, J., dissenting).

15

Mr. Mitchell identifies no procedures in Arizona statutes or criminal rules

16

concerning the means for effectuating death that conflict with the BOP protocol. The Court

17

therefore concludes that the government’s planned method of execution is not inconsistent

18

with the salient provisions of Arizona law.9

19

IT IS ORDERED:

20

1.

21

Mr. Mitchell’s motion to strike his execution warrant, vacate his execution

date, and enjoin violation of this Court’s Judgment (Doc. 606) is denied.
Mr. Mitchell’s motion to stay his execution (Doc. 609) is denied.

22

2.

23

Dated this 13th day of August, 2020.

24
25
26
27
28

By addressing the parties’ legal arguments dispassionately in this order, the Court does
not mean to minimize the difficult and vexing human issues on both sides of this case.
9

- 16 -

Appendix B - 029

U.S. Department of Justice
Federal Bureau of Prisons
Federal Correctional Complex
Terre Haute, Indiana

July 29, 2020

Mr. Lezmond Charles Mitchell
Reg. No. 48685-008
Special Confinement Unit
United States Penitentiary
Terre Haute, Indiana 47802
Dear Mr. Mitchell:
The purpose of this letter is to inform you that a date has been set for the
implementation of your death sentence, pursuant to the Judgment and Order issued on
January 8, 2004, by Judge Mary H. Murguia of the United States District Court for the
District of Arizona. This letter will serve as official notification that pursuant to Title 28,
Code of Federal Regulations, Section 26.3(a)(1 ), the Director of the Federal Bureau of
Prisons has set August 26, 2020, as the date for your execution by lethal injection.
Soon, I will come to your housing unit to personally discuss with you many of the details
surrounding the execution . At that time, I will be available to answer any questions you
may have regarding the execution process.
Sincerely,

a son
Complex Warden
cc: The Honorable David G. Campbell, Senior Judge, U.S. District Court (D. Arizona)
Ms. Debra D. Lucas, Acting Clerk of the Court (D. Arizona)
Mr. Michael G. Bailey, United States Attorney (D. Arizona)
Ms. Sharon Sexton, Assistant United States Attorney (D. Arizona)
Mr. William Voit, Assistant United States Attorney (D. Arizona)
Mr. Jonathan Aminoff, Assistant Federal Defender (California)
Ms. Celeste Bacchi, Assistant Federal Defender (California)
Mr. Josh Minkler, United States Attorney (S.D. Indiana)
Mr. Joseph "Dan" McClain, U.S. Marshal (S.D. Indiana)
Mr. Ethan P. Davis, Acting Assistant Attorney General , Civil Division
Mr. Paul Perkins, Office of the Assistant Attorney General , Civil Division

Appendix C - 030

Case: 20-99009, 08/14/2020, ID: 11790202, DktEntry: 7, Page 1 of 1

FILED
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

AUG 14 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 20-99009

v.

D.C. No. 3:01-cr-01062-DGC-1
District of Arizona,
Phoenix

LEZMOND C. MITCHELL,

AMENDED ORDER

Defendant-Appellant.

Before: IKUTA, CHRISTEN, and HURWITZ, Circuit Judges.
The order filed earlier today is vacated. This amended order is filed in its
place. In the remaining briefs on the pending emergency motion, the parties are
directed to focus on the underlying merits of Defendant-Appellant’s appeal of the
district court’s August 13, 2020 order. The parties should also be prepared to
discuss the merits of the appeal at a hearing on Tuesday, August 18, 2020, at 1:00
p.m. Pacific Time.

Appendix D - 031

Case: 20-99009, 08/18/2020, ID: 11794121, DktEntry: 13, Page 1 of 2

FILED
AUG 18 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

20-99009

D.C. No.
3:01-cr-01062-DGC-1
District of Arizona,
Phoenix

LEZMOND C. MITCHELL,
Defendant-Appellant.

ORDER

Before: IKUTA, CHRISTEN, and HURWITZ, Circuit Judges.
At oral argument, counsel for the government represented that the Bureau of
Prisons would comply with the Arizona Department of Corrections’s Department
Order 710 to the extent it requires: (1) that the person or persons who place the IV
lines be “currently certified or licensed within the United States to place IV lines,”
(2) that the insertion of “either peripheral IV catheters or a central femoral line”
shall be based upon the recommendation of a person “currently certified or
licensed within the United States to place IV lines,” (3) that “[a] central femoral
venous line will not be used unless the person placing the line is currently qualified
by experience, training, certification, or licensure within the United States to place
a central femoral line,” and (4) that the chemicals used in the execution “have an
expiration or beyond-use date that is after the date that an execution is carried out.”

Appendix E - 032

Case: 20-99009, 08/18/2020, ID: 11794121, DktEntry: 13, Page 2 of 2

Counsel for the government is hereby ordered to file, on or before
Wednesday, August 19, 2020, at noon PDT, a declaration from a person at the
Bureau of Prisons, who is knowledgeable as to its execution procedures,
confirming that the Bureau of Prisons will adhere to the requirements set forth
above when carrying out the execution of Lezmond Mitchell.
IT IS SO ORDERED.

2

Appendix E - 033

Case: 20-99009, 08/19/2020, ID: 11794490, DktEntry: 15, Page 1 of 5

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
C.A. No. 20-99009
Plaintiff-Appellee,
D. Ct. No. CR-01-01062-PCT-DGC
v.
LEZMOND C. MITCHELL,

NOTICE OF FILING OF
DECLARATION

Defendant-Appellant.

The United States gives notice that it is simultaneously filing as an attachment
to this notice a declaration from Rick Winter, Regional Counsel for the Federal
Bureau of Prisons (“BOP”) North Central Region, a person who is knowledgeable
as to its execution procedures, as ordered by the Court on August 18, 2020 (Dkt. 13).
The government maintains its position that Mitchell has failed to carry his
burden of establishing a clear entitlement to equitable relief by, among other things,
failing to proffer evidence in either the district court or this Court clearly showing a
likelihood of non-speculative, significant irreparable harm warranting an injunction.
See Mazurek v. Armstrong, 520 U.S. 968, 972 (1997); see also Brewer v. Landrigan,
562 U.S. 996, 996 (2010) (mem.). The government nevertheless submits the attached
declaration in compliance with the Court’s order and to fully respond to the Court’s
questions at oral argument.

Appendix F - 034

Case: 20-99009, 08/19/2020, ID: 11794490, DktEntry: 15, Page 2 of 5

Respectfully submitted this 19th day of August, 2020.
MICHAEL BAILEY
United States Attorney
District of Arizona

s/ Krissa M. Lanham
KRISSA M. LANHAM
Assistant U.S. Attorney
Two Renaissance Square
40 North Central Avenue, Suite 1800
Phoenix, Arizona 85004-4449
Telephone: (602) 514-7500

2

Appendix F - 035

Case: 20-99009, 08/19/2020, ID: 11794490, DktEntry: 15, Page 3 of 5

CERTIFICATE OF SERVICE
I hereby certify that on August 19, 2020, I electronically filed the foregoing
with the Clerk of the Court for the United States Court of Appeals for the Ninth
Circuit by using the appellate CM/ECF system.
I certify that all participants in the case are registered CM/ECF users and that
service will be accomplished by the appellate CM/ECF system.

s/ Krissa M. Lanham
Assistant U.S. Attorney

3

Appendix F - 036

Case: 20-99009, 08/19/2020, ID: 11794490, DktEntry: 15, Page 4 of 5

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
V.

LEZMOND CHARLES MITCHELL
Defendant-Appellant.

)
)
)
)
)
)
)
)
)
)

CA No. 20-99009

DECLARA TION OF RICK WINTER

I, Rick Winter, do hereby declare and state as follows:
1.

I am employed by the United States Department of Justice, Federal Bureau of Prisons
("BOP"), as Regional Counsel for the BOP's North Central Region. I have held this
position since October 2016. I have been employed by the BOP since 1994.

2.

The statements I make hereinafter are made on the basis of my review of the official files
and records of the BOP, my own personal knowledge, or on the basis of information
acquired by me through the performance of my official duties.

3.

The BOP, under the supervision of the United States Marshals Service, is responsible for
implementing federal death sentences.

See 18 U.S.C. § 3596(a); 28 C.F.R. Part 26.

Lezmond Mitchell's execution is scheduled to take place on August 26, 2020.
4.

All qualified personnel responsible for inserting either peripheral IV catheters or a central
femoral line during the execution of Lezmond Mitchell will be currently certified or
licensed within the United States to place IV lines.

5.

The insertion of either peripheral IV catheters or a central femoral line will be based upon
the recommendation of a person currently certified or licensed within the United States to
1

Appendix F - 037

Case: 20-99009, 08/19/2020, ID: 11794490, DktEntry: 15, Page 5 of 5

place IV lines.
6.

Only peripheral IV catheters or a central femoral line will be used during the execution of
Lezmond Mitchell. A central femoral venous line will not be used unless the person placing
the line is currently qualified by experience, training, certification or licensure within the
United States to place a central femoral line.

7.

The BOP will only use chemicals in the execution of Lezmond Mitchell that have an
expiration or beyond-use date that is after the date on which his execution will be carried
out. If the chemical' s expiration or beyond-use date states only a month and year (e.g. "June
2017"), then BOP will not use that chemical after the last day of the month specified.

I declare, under penalty of perjury, pursuant to 28 U.S.C. § 1746, that the foregoing is true and
correct.

Executed this

I':f -f-'1

day of August, 2020.

Rick Winter
Federal Bureau of Prisons

2

Appendix F - 038

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 1 of 43

CA No. 20-99009
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,

DC No. 3:01-cr-01062-DGC
(Civil No. 3:09-cv-08089-DGC)

Plaintiff-Appellee,

DEATH PENALTY CASE

v.
LEZMOND CHARLES MITCHELL,
Defendant-Appellant.

Execution Set For:
August 26, 2020 at
Time: To Be Determined.

APPELLANT’S REPLY TO APPELLEE’S
NOTICE OF FILING OF DECLARATION

APPEAL FROM THE UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF ARIZONA
The Honorable David G. Campbell
United States District Judge
CUAUHTEMOC ORTEGA
Interim Federal Public Defender
JONATHAN C. AMINOFF
Jonathan_Aminoff@fd.org
CELESTE BACCHI
Celeste_Bacchi@fd.org
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012-4202
Tel: (213) 894-5374; Fax: (213) 894-0310
Attorneys for Petitioner-Appellant
LEZMOND CHARLES MITCHEL
Appendix G - 039

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 2 of 43

Mitchell objects to the manner of execution that that Government and the
Court are creating. Under 18 U.S.C. § 3596, the Government is obligated to
execute Mitchell in accordance with all of Arizona law, not in accordance with a
judicially-created lethal injection protocol that only covers four select provisions of
Arizona’s lethal injection protocol.1 This Court has no power to fashion such
compromises in death penalty cases and it should not do so here. Morales v. Cate,
623 F.3d 828, 831 (9th Cir. 2010) as amended (Sept. 28, 2010) (“Despite the best
of intentions on the part of the district court to fashion a compromise and a choice
of methods here, imposing on Brown such a choice between the new three-drug
protocol and a one-drug option never adopted by the State places an undue burden
on Brown and is beyond the power and expertise of the district court at this
juncture. The result in this case should not be driven by compromise nor by the

1

The Court directed BOP to comply with certain provisions of Department
Order 710 in an apparent effort to make sure that the BOP’s execution of Mitchell
would be substantially similar in four ways that the Court deems to be material.
Mitchell has argued—and this Court’s order seems to agree—that Arizona law
includes not just the directives in Arizona statutes, but Department Order 710 as
well. However, the law requires that Mitchell be executed “in the manner prescribed
by law of the State of Arizona” does not include just those four provisions. Rather,
he is entitled to be executed according to the entirety of Department Order 710, as
everything within that order creates legally enforceable rights or obligations under
Arizona law. See First Amendment Coalition of Arizona, Inc. v. Ryan, Case No.
2:14-cv-01447, dkt. 186 (D. Ct. Ariz. June 21, 2017) at 1-2 (pursuant to stipulation,
ADC and related defendants may never again claim that the protocols do not create
legally enforceable rights and obligations).

1

Appendix G - 040

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 3 of 43

State’s deadlines superimposed on the district court's already pending review of the
new execution protocol.”)
Nor does the Government have the right to engage in ad hoc, last-minute
changes to its execution protocol. “Because the death penalty is undeniably the
most serious penalty available to a State, the procedures for such penalty must be
implemented in a reasoned, deliberate, and constitutional manner.” Towery v.
Brewer, 672 F.3d 650, 653 (9th Cir. 2012) (internal quotations omitted). This
Court once chastised the State of Arizona for “amending its execution protocol on
an ad hoc basis—through add-on practices, trial court representations and
acknowledgments, and last minute written amendments—leaving the courts with a
rolling protocol that forces us to engage with serious constitutional questions and
complicated factual issues in the waning hours before executions.” Id. The protocol
that Arizona has now is, in part, the result of this Court’s admonishment that the
informal, rolling amendments “cannot continue.” Id. If the State of Arizona
cannot conduct executions in this manner, neither can the federal government.
The irreparable harm in this situation is that without a stay of execution,
Mitchell will not be able to pursue his claim that the lethal injection protocol fails
to comply with Arizona’s lethal injection protocol, see Exhibit 3 (table), and that
Mitchell will be executed via an execution procedure that is unlawful. This is
precisely the harm that the District Court for the District of Columbia described as

2

Appendix G - 041

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 4 of 43

“manifestly irreparable” when granting a preliminary injunction to multiple deathsentenced inmates on a very similar claim. Matter of Fed. Bureau of Prisons'
Execution Protocol Cases, No. 12-CV-0782, 2019 WL 6691814, at *7 (D.D.C.
Nov. 20, 2019), vacated and remanded sub nom. In re Fed. Bureau of Prisons'
Execution Protocol Cases, 955 F.3d 106 (D.C. Cir. 2020), cert. denied sub nom.
Bourgeois v. Barr, No. (19A1050), 2020 WL 3492763 (U.S. June 29, 2020)
(“Here, absent a preliminary injunction, Plaintiffs would be unable to pursue their
claims, including the claim that the 2019 Protocol lacks statutory authority, and
would therefore be executed under a procedure that may well be unlawful. This
harm is manifestly irreparable.”) The Government’s application to vacate the
District Court for the District of Columbia’s injunction was unanimously denied by
the Supreme Court. Barr v. Roane, 140 S. Ct. 353, 205 L. Ed. 2d 379 (2019).
Mitchell respectfully requests that this Court stay Mitchell’s August 26,
2020 execution, and remand this case to the district court for a factual
determination regarding the totality of the differences between the Arizona
protocol and the federal protocol. Kappos v. Hyatt, 566 U.S. 431, 439 (2012)
(“[A] district court, unlike a court of appeals, has the ability and the competence to
receive new evidence and to act as a factfinder.”); see also Nat’l Wildlife Fed’n v.
Burlington N. R.R., Inc., 23 F.3d 1508, 1511 n.5 (9th Cir. 1994) (“Facts not
presented to the district court are not part of the record on appeal.”).

3

Appendix G - 042

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 5 of 43

Alternatively, Mitchell requests that this Court stay Mitchell’s August 26,
2020 execution and consider the underlying merits of Mitchell’s claim regarding
the Government’s violation of the district court’s January 2004 sentencing order
after full briefing and an appeal in the ordinary course.
However, if the Court is not inclined to grant Mitchell’s motion for stay of
execution, then Mitchell requests that this motion be denied expeditiously such that
he can seek further review in the United States Supreme Court.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Interim Federal Public Defender

DATED: August 19, 2020

By /s/ Jonathan C. Aminoff
JONATHAN C. AMINOFF
CELESTE BACCHI
Deputy Federal Public Defenders
Attorney for Defendant-Appellant
LEZMOND CHARLES MITCHELL

4

Appendix G - 043

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 6 of 43

EXHIBIT 3
Appendix G - 044

Arizona Method v. DOJ Method
Date
DOJ PROTOCOL(S)

The warrant of execution must specify an execution
date that is 35 days after the warrant’s issuance. If the
Supreme Court finds that it is impracticable to carry
out an execution on that date, it may extend the
execution date but may not extend it more than 60
days after the warrant's issuance. Additionally, the
warrant must:

On a date [. . .] designated by the Director of the Federal
Bureau of Prisons []. If the date designated for execution
passes by reason of a stay of execution, then a new date
shall be designated promptly by the Director of the Federal
Bureau of Prisons when the stay is lifted;

(1) state the date for starting the execution time
period;
(Ariz. R. Crim. P. 31.23(C))

(28 C.F.R. § 26.3(a)(1))
Except to the extent a court orders otherwise, the Director
of the BOP will designate a date, time, and place for the
execution of the sentence.
[. . .]
Under current federal regulations, the date established will
be no sooner than 60 days from the entry of the judgment
of death (28 C.F.R. § 26.3{a) (1)) and notice of it must be
given to the defendant no later than 20 days before the
execution (28 C.F.R. § 26.4(a)). If the date designated
passes by reason of a stay of execution, then a new date
will be promptly designated by the Director of the BOP
when the stay is lifted.
(DOJ Protocol at 5.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 7 of 43

ARIZONA

1

Appendix G - 045

Time1
ARIZONA

DOJ PROTOCOL(S)
Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 8 of 43

The Director shall select the time of execution and
[Not specified]
provide notice to the Arizona Supreme Court and the
parties at least 20 calendar days prior to the execution
date. (Arizona Rules of Criminal Procedures, Rule
31.17(c)(3)).
(AZ Protocol at 3.)
The warrant must:
(2) state that the warrant is valid for 24 hours
beginning at an hour to be designated by the director
of the Arizona Department of Corrections;
(3) order the director to provide written notice of the
designated hour of execution to the Supreme Court
and each party at least 20 calendar days before the
execution date; and
(Ariz. R. Crim. P. 31.23(c)(3))

1

See US v. Hammer, 121 F.Supp.2d 794 (M.D.Pa. 2000) on issues of litigating time of the day of the execution in
this context.
2

Appendix G - 046

Place of Execution
ARIZONA

At a federal penal or correctional institution designated by
the Director of the Federal Bureau of Prisons. (28 C.F.R.
§ 26.3 (a)(2))
On June 18, 1993, the Director of the BOP established the
United States Penitentiary, Terre Haute, Indiana, as the
site of such executions.
(DOJ Protocol at 5.)

Whom?
ARIZONA
See execution teams detailed below.

DOJ PROTOCOL(S)
By a United States Marshal designated by the Director of
the United States Marshals Service, assisted by additional
personnel selected by the Marshal and the Warden of the
designated institution and acting at the direction of the
Marshal; and
(28 C.F.R. § 26.3(a)(3))

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 9 of 43

[Not specified]

DOJ PROTOCOL(S)

3

Appendix G - 047

Method of Execution
DOJ PROTOCOL(S)

The penalty of death shall be inflicted by an
intravenous injection of a substance or substances in a
lethal quantity sufficient to cause death, under the
supervision of the state department of corrections.

By intravenous injection of a lethal substance or
substances in a quantity sufficient to cause death, such
substance or substances to be determined by the Director
of the Federal Bureau of Prisons and to be administered
by qualified personnel selected by the Warden and acting
at the direction of the Marshal.

(Ariz. Rev. Stat. Ann. § 13-757(A))

28 C.F.R. § 26.3(a)(4)
Federal death sentences are implemented by an
intravenous injection of a lethal substance or substances
in a quantity sufficient to cause death, such substance or
substances to be determined by the Director, Federal
Bureau of Prisons (BOP) and to be administered by
qualified personnel selected by the Warden and acting at
the direction of the United States Marshal. 28 CFR 26.3.
(DOJ Addendum 7/25/2019 at A.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 10 of 43

ARIZONA

4

Appendix G - 048

The Drug
ARIZONA

The lethal substances to be utilized in federal lethal
injections shall be Pentobarbital Sodium.

The Director shall have the sole discretion as to which
drug protocol will be used for the scheduled execution. (DOJ Addendum 7/25/2019 at C.)
This decision will be provided to the inmate and their
counsel of record in writing at the time the state files a
request for Warrant of Execution in the Arizona
Supreme Court.
If the Department is able to obtain the chemical
pentobarbital in sufficient quantity and quality to
successfully implement the one-drug protocol with
pentobarbital set forth in Chart A, then the Director
shall use the one-drug protocol with pentobarbital set
forth in Chart A as the drug protocol for execution.
If the Department is unable to obtain such
pentobarbital, but is able to obtain the chemical
sodium pentothal in sufficient quantity and quality to
successfully implement the one-drug protocol with
sodium pentothal set forth in Chart B, then the
Director shall use the one-drug protocol with sodium
pentothal set forth in Chart B as the drug protocol for
execution.

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 11 of 43

Sodium Thiopental or Pentobarbital:

DOJ PROTOCOL(S)

(AZ Protocol, Attachment D at 2.)
5

Appendix G - 049

Pre-Execution Access to Counsel, Family, Spiritual Advisors, Etc.
ARIZONA

Beginning seven days before the designated date of
execution, the prisoner shall have access only to his
spiritual advisers (not to exceed two), his defense
attorneys, members of his family, and the officers and
employees of the institution. Upon approval of the
Director of the Federal Bureau of Prisons, the Warden
may grant access to such other proper persons as the
prisoner may request. (28 C.F.R. § 26.4 (b) / DOJ
Protocol at 10.)

The Warden shall allow the inmate to keep in the cell
one box each of legal and religious materials, a pencil
and paper, and a book or periodical. (AZ Protocol at
12.)
The inmate's visitation privileges shall be terminated at
2100 hours the day prior to the execution. The inmate
will be permitted two hours of in-person visitation with
no more than two Attorneys of Record, concluding one
hour prior to the scheduled execution. (AZ Protocol at
15.)

The condemned individual's Attorney(s) of Record,
spiritual adviser(s), immediate family members or other
persons approved by the Director of the BOP, will be
given visiting privileges during the final 24 hours as
determined by the Warden. Visiting privileges will be
suspended when preparations for the execution require
suspension. (DOJ Protocol at 14.)
From 12 to 3 hours prior to execution, visits by family,
attorneys, religious representatives, and other persons
approved by the Director of the BOP, will be at the
discretion of the Warden. (DOJ Protocol at 16.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 12 of 43

Thirty-five days prior to the execution, the Warden (or
designee) will offer the inmate the opportunity to
contact their Attorney of Record by phone and to speak
with a facility chaplain. (AZ Protocol at 11.)

DOJ PROTOCOL(S)

6

Appendix G - 050

Pre-Execution Phone Calls
ARIZONA

DOJ PROTOCOL(S)
Excluding calls to the condemned individual’s Attorney(s) of
Record and calls specifically approved by the Warden, the
condemned individual's telephone privileges will be
terminated 24 hours prior to the execution.
(DOJ Protocol at 14.)

Qualification/Selection of Executioners
ARIZONA

DOJ PROTOCOL(S)

Not less than fourteen (14) days prior to a scheduled
execution, the Director or designee, in conjunction with the
United States Marshal Service, shall make a final selection of
qualified personnel to serve as the executioner(s) and their
Housing Unit 9 Section (deals with conditions of
alternates. See BOP Execution Protocol, Chap. 1, §§ III (F)
confinement and application of approved procedures) is and IV (B) & (E).
the Restraint + Special Ops team and is selected by
Division Director with documented approval of
(DOJ Addendum 7/25/2019 at D.)
Director.
BOP Protocol, Chap. 1, §§ III (F)
 Restraint Team (at least 7 members) provides
Those persons necessary to carry out the execution will be
continuous observation of the inmate on day of
identified.
execution and applies appropriate restraint
procedures
Command Team (deals with overall coordination of
execution procedures) is selected by Division Director
with documented approval of Director.

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 13 of 43

Twenty-four hours prior to the day of the execution, the
Warden shall ensure phone calls are concluded by 2100
hours. The inmate’s telephone privileges shall be
terminated at 2100 hours the day prior to the execution,
excluding calls from the inmate’s Attorney of Record
and others as approved by the Division Director for
Prison Operations. (AZ Protocol at 15.)

7

Appendix G - 051

ARIZONA

DOJ PROTOCOL(S)
The Warden, with the assistance of the Director, USMS, and
the Director, BOP, will be responsible for identifying,
selecting and obtaining the services of the individuals
administering the lethal injection.

Intravenous Team Members (deals with inserting
access, ensuring lines are functioning, supervising the
Special Ops team in mixing the chemicals, prepares the
syringes, monitors the inmate) are selected by the
Director. At least two or more qualified (see below)
members.

The Warden is responsible for selection of the persons
involved in perimeter security, transportation, and command
post operations, as well as crowd control, support functions
and access screening.
Individuals will be identified for placement in all vital or
important positions. Alternates will also be identified. The
Assistant Director, Correctional Programs Division, Regional
Director, and the Warden will determine which positions
require alternates and will ensure adequate coverage is
provided. (DOJ Protocol at 7.)

Maintenance Response Team (deals with testing
equipment and ensuring it works) is at least 4 members
and selected by the warden.
Critical Incident Response Team (deals with
educating staff regarding possibly psychological
responses and coping mechanisms) is at least 4
members and selected by the Employee Relations
Administrator.

BOP Protocol, Chap. 1, § IV (B) & (E)
B. Qualified Person
The Warden will finalize arrangements for a qualified person
to be present at the execution and to declare the executed
individual deceased.

Traffic Control Team (deals with state/local law
enforcement, traffic control, etc.) is at least 9 members
and selected by the Division Director for Prison
Operations.

E. Selection of Executioner(s)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 14 of 43

 Special Ops team (at least 5 members)
implements the protocol, with primary duty of
administering the chemicals and mixing the
chemicals

8

Appendix G - 052

ARIZONA

DOJ PROTOCOL(S)
The Warden, with the assistance of the Director, USMS and
Director, BOP, will finalize the selection of executioner(s)
and their alternates.

Victim Services Team (deals with communication
with victims) is at least 2 members and has specific
duties on the day of the execution.

(DOJ Protocol at 9.)

(AZ Protocol at 5-8.)
With respect to certain teams, the protocol has
disqualifying provisions including: “No employee who
was suspended or demoted in the past 12 months shall
be considered. Any staff currently under investigation
is also ineligible,” and “Staff with less than two years
employment with the Department shall not be
considered.”
(AZ Protocol at 9.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 15 of 43

Escort Team (deals with movement of witnesses) is at
least 9 members and selected by Division Director for
Prison Operations.

9

Appendix G - 053

IV Team Qualifications
ARIZONA

DOJ PROTOCOL(S)

physician(s), physician assistant(s), nurse(s),
emergency medical technician(s) (EMTs),
paramedic(s), military corpsman or other certified or
licensed personnel including those trained in the United
States Military.
All team members shall be currently certified or
licensed within the United States to place IV lines.
The IV Team members shall be selected by the
Director.

Qualified personnel includes currently licensed physicians,
nurses, EMTs, Paramedics, Phlebotomists, other medically
trained personnel, including those trained in the United States
Military having at least one year professional experience and
other personnel with necessary training and experience in a
specific execution related function.
Any documentation establishing the qualifications, including
training, of such personnel shall be maintained by the
Director or designee.
(DOJ Addendum 7/25/2019 at D.)

Selection of any team member shall include a review of
the proposed team member’s qualifications, training,
experience, and/or any professional license(s) and
certification(s) they may hold.
Licensing and criminal history reviews shall be
conducted, by the Inspector General’s Office prior to
assigning or retaining any IV Team member and upon
the issuance of a Warrant of Execution.
(AZ Protocol at 6.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 16 of 43

The IV Team will consist of any two or more of the
following:

10

Appendix G - 054

Intravenous Access
ARIZONA

DOJ PROTOCOL(S)

catheters or a central femoral line as determined by the
Director acting upon the recommendation of the IV
Team Leader.

(1) based on the training and experience of personnel
establishing the intravenous access;
(2) to comply with specific orders of federal courts; or

A central femoral venous line will not be used unless
the person placing the line is currently qualified by
experience, training, certification or licensure within
the United States to place a central femoral line.

(3) based upon a recommendation from qualified personnel.

(DOJ Addendum 7/25/2019 at H.)
(AZ Protocol at 7.)
Last Meal
ARIZONA

DOJ PROTOCOL(S)

The Warden shall advise the inmate he may request a
last meal by completing the Last Meal Request, Form
710-5, and returning it no later than 14 days prior to the
execution. Reasonable effort shall be made to
accommodate the request.

At least seven days prior to execution, the Warden or
designee will contact the condemned individual to arrange
for his/her last meal.
(DOJ Protocol at 10.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 17 of 43

Lethal substances shall be administered intravenously. The
Director or designee shall determine the method of venous
access

The IV Team shall be responsible for inserting either
peripheral IV

(AZ Protocol at 4.)
11

Appendix G - 055

(AZ Protocol at 15.)

The Warden will contact the condemned individual to
finalize arrangements for his/her final meal and ensure that it
is properly prepared and served by staff.
(DOJ Protocol at 14.)
The condemned individual will be served a final meal at a
time determined by the Warden.
(DOJ Protocol at 16.)

Training
ARIZONA

DOJ PROTOCOL(S)

The Division Director for Prison Operations shall
establish a training schedule and identify dates for
periodic on-site practice by the Housing Unit 9 Section
Teams, to include 10 training scenarios within 12
months preceding the scheduled execution. [The
Director shall] conduct a minimum of 2 training
sessions with multiple scenarios 2 days prior to the
scheduled execution.

The Warden will ensure that appropriate training sessions are
held for persons involved in the various aspects of the
execution event.

The IV Team members shall participate in at least 1
training session with multiple scenarios within 1 day
prior to the scheduled execution.

Not all of the persons involved need to practice together.
Individual teams will practice as units, with inter-team
practices scheduled, as necessary by the Warden, to facilitate
coordination and smooth interaction.
(Protocol at 9-10.)
Final practices will be conducted as directed by the Warden.
(DOJ Protocol at 13.)

(AZ Protocol at 4.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 18 of 43

The ASPC-Eyman or ASPC-Perryville Warden shall
ensure the inmate receives the last meal by 1900 hours.
Every reasonable effort to accommodate the last meal
request will have been made. All eating utensils and
remaining food and beverage shall be removed upon
completion of the meal.

12

Appendix G - 056

(AZ Protocol at 7.)

Non-medically licensed or certified qualified personnel shall
participate in a minimum of ten (10) execution rehearsals a
year and shall have participated in at least two (2) execution
rehearsals prior to participating in an actual execution.
(DOJ Addendum 7/25/2019 at D).

Two days prior to an execution, the Division Director
schedules and conducts on-site scenario training
sessions, modifying practices as warranted.
(AZ Protocol at 14.)
Last Rites
ARIZONA
[Not specified]

DOJ PROTOCOL(S)
[Not specified]

Procurement of LI Drugs
ARIZONA
The Housing Unit 9 Section Leader shall ensure that
complete sets of chemicals are on site, not expired, and
immediately available for use.
ADC will only use chemicals in an execution that have
an expiration or beyond-use date that is after the date
that an execution is carried out. If the chemical’s
expiration or beyond-use date states only a month and

DOJ PROTOCOL(S)
The Warden will ensure the purchase of lethal substances to
be used in the execution. Once purchased, these lethal
substances will be secured in the institution until called for
by the Warden.
(DOJ Protocol at 10.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 19 of 43

IV Team members shall only be required to participate
in the training sessions scheduled for 1 day prior to the
actual execution.

13

Appendix G - 057

year (e.g., “June 2017”), then ADC will not use that
chemical after the last day of the month specified.

The decision to use a compounded or non-compounded
chemical will be provided to the inmate and their
counsel of record in writing at the time the state files a
request for Warrant of Execution in the Arizona
Supreme Court.
(AZ Protocol, Attachment D at 2.)
Storage of LI Drugs
ARIZONA
The Housing Unit 9 Section Leader shall ensure the
chemicals are ordered, arrive as scheduled and are
properly stored. The chemicals shall be stored in a
secured, locked area that is temperature regulated and
monitored to ensure compliance with manufacturer
specifications, under the direct control of the Housing
Unit 9 Section Leader.

DOJ PROTOCOL(S)
[Not specified]

(AZ Protocol, Attachment D at 1.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 20 of 43

(AZ Protocol, Attachment D at 1.)

14

Appendix G - 058

Testing of LI Drugs
ARIZONA

DOJ PROTOCOL(S)

(AZ Protocol, Attachment D at 2.)
Documentation of Execution Procedures
ARIZONA
See duties of Recorder throughout execution.

DOJ PROTOCOL(S)
The Warden will designate a recorder who will begin logging
execution activities in the official execution log book
commencing three hours prior to the scheduled execution.
This includes the time of: condemned leaving the inmate
holding cell, when strapped to the gurney, arrival of witnesses,
opening of drapes, last statement, approval of the process,
signal that drugs have been administered, EKG determination,
announcement of death, closing of drapes, notification of
public of death, removal of witnesses, removal of body,
cleaning chores, and securing the chamber.
(DOJ Protocol at 17.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 21 of 43

[Not specified]
A quantitative analysis of any compounded or noncompounded chemical to be used in the execution shall
be provided upon request within ten calendar days after
the state seeks a Warrant of Execution.

15

Appendix G - 059

Preparing of Syringes
DOJ PROTOCOL(S)

The IV Team Leader, with the assistance of a Special
Operations Team member, shall be responsible for
preparing and labeling the assigned sterile syringes in a
distinctive manner identifying the specific chemical
contained in each syringe by

The lethal substances shall be placed into three sets of
numbered and labeled syringes. One of the sets of syringes is
used in the implementation of the death sentence and two
sets are available as a backup.

i)
ii)
iii)
iv)

assigned number,
chemical name,
chemical amount and
the designated color, as set forth in the
chemical charts below. This information
shall be preprinted on a label, with one label
affixed to each syringe to ensure the label
remains visible.

(Addendum 7/25/2019 at F.)

(AZ Protocol, Attachment D at 1.)
After the IV Team prepares all required syringes with
the proper chemicals and labels as provided in the
Chemical Chart, the Special Operations Team, under
the supervision of the IV Team, shall attach one
complete set of the prepared and labeled syringes to the
2-Gang, 2-Way Manifold in the order in which the
chemical(s) are to be administered. The syringes will
be attached to the 2-Gang, 2-Way Manifold in a

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 22 of 43

ARIZONA

16

Appendix G - 060

ARIZONA

DOJ PROTOCOL(S)

The syringes shall be affixed in such a manner to
ensure the syringe labels are clearly visible. Prior to
attaching the syringes to the 2-Gang, 2-Way Manifold,
the flow of each gauge on the manifold shall be
checked by the IV Team Leader running the sterile
saline solution through the line to confirm there is no
obstruction.
After all syringes are prepared and affixed to the 2Gang, 2-Way Manifold in proper order, the Special
Operations Team Leader shall confirm that all syringes
are properly labeled and attached to the manifold in the
order in which the chemicals are to be administered as
designated by the Chemical Chart. Each chemical shall
be administered in the predetermined order in which
the syringes are affixed to the manifold.
(AZ Protocol, Attachment D at 3.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 23 of 43

manner to ensure there is no crowding, with each
syringe resting in its corresponding place in the shadow
board which is labeled with the name of the chemical,
color, chemical amount and the designated syringe
number.

17

Appendix G - 061

Dosage of Drugs
ARIZONA

DOJ PROTOCOL(S)
A set of syringes will consist of:

Syringe No. Label
1A 20mL Sterile Saline Solution, BLACK
2A 2.5gm Pentobarbital, GREEN
3A 2.5gm Pentobarbital, GREEN
4A 20mL Sterile Saline Solution, BLACK

Syringe #1 contains 2.5 grams of Pentobarbital Sodium in 50
mL of diluent
Syringe #2 contains 2.5 grams of Pentobarbital Sodium in 50
mL of diluent
Syringe #3 contains 60 mL of saline flush

CHART B (SODIUM PENTOTHAL):
Syringe No. Label
1A 20mL Sterile Saline Solution, BLACK
2A 1.25gm Sodium Pentothal, GREEN
3A 1.25gm Sodium Pentothal, GREEN
4A 1.25gm Sodium Pentothal, GREEN
5A 1.25gm Sodium Pentothal, GREEN
6A 20mL Sterile Saline Solution, BLACK

(Addendum 7/25/2019 at H.)

(AZ Protocol, Attachment D at 2.)
One-drug protocol: One full set of syringes is used in
the implementation of the death sentence (Bank “A”)
and an additional complete set of the necessary
chemicals shall be obtained and kept available in the
chemical room, but need not be drawn into syringes
unless the primary dosages prove to be insufficient for
successful completion of the execution.

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 24 of 43

CHART A (PENTOBARBITAL):

18

Appendix G - 062

(AZ Protocol, Attachment D at 1.)

The chemical amounts as set forth in the Chemical
Chart are designated for the execution of persons
weighing 500 pounds or less. The chemical amounts
will be reviewed and may be revised as necessary for
an inmate exceeding this body weight.

DOJ PROTOCOL(S)
[Not specified]

(AZ Protocol, Attachment D at 3.)
Sedative
ARIZONA
Upon the inmate’s arrival, the inmate may be offered a
mild sedative.

DOJ PROTOCOL(S)
[Not specified]

No later than four hours prior to the execution, the
inmate may be offered a mild sedative.
(AZ Protocol at 16.)
The inmate may be offered a mild sedative based on
the inmate’s need. The sedative shall be provided to
the inmate no later than four hours prior to the
execution, unless it is determined medically necessary.

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 25 of 43

Special Accommodations
ARIZONA

19

Appendix G - 063

(AZ Protocol, Attachment D at 4.)
Witnesses to Execution
ARIZONA

DOJ PROTOCOL(S)

The director of the state department of corrections or
the director’s designee shall be present at the execution
of all death sentences and shall invite the attorney
general and at least twelve reputable citizens of the
director’s selection to be present at the execution.

In addition to the Marshal and Warden, the following
persons shall be present at the execution:
(1) Necessary personnel selected by the Marshal and
Warden;

The director shall, at the request of the defendant,
permit clergymen, not exceeding two, whom the
defendant names and any persons, relatives or friends,
not exceeding five, to be present at the execution. The
director may invite peace officers as the director deems
expedient to witness the execution. No persons other
than those set forth in this section shall be present at
the execution nor shall any minor be allowed to witness
the execution.

(2) Those attorneys of the Department of Justice whom the
Deputy Attorney General determines are necessary;
(3) Not more than the following numbers of person selected
by the prisoner:
(i) One spiritual adviser;
(ii) Two defense attorneys; and
(iii) Three adult friends or relatives; and

(Ariz. Rev. Stat. Ann. § 13-758)

(4) Not more than the following numbers of persons selected
by the Warden:

The Warden shall inform the inmate that two clergy
and five other persons may be invited to be present at

(i) Eight citizens; and

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 26 of 43

The offer of the mild sedative, the inmate’s decision,
and the administration of the sedative, if chosen, shall
be documented in the watch log.

20

Appendix G - 064

ARIZONA

DOJ PROTOCOL(S)
(ii) Ten representatives of the press.

(AZ Protocol at 3-4.)

As to the Eight citizens:

In the event that the inmate wishes to designate one or
more of their attorneys or other members of their legal
team (not to exceed a cumulative three persons) to
witness the execution, then the inmate shall identify
these witnesses twenty-one days prior to the execution,
and these witnesses shall sign and timely submit an
Official Witness Agreement (Form 710-6), whereupon
the Director shall invite these witnesses to attend the
execution in accordance with section 10, subsection
10.2.1.1 of this Department Order.

In identifying these individuals, the Warden, no later than 30
days after the setting of an execution date, will ask the
United States Attorney for the jurisdiction in which the
condemned individual was prosecuted to recommend up to
eight individuals who are victims or victim family members
to be witnesses of the execution.

(AZ Protocol at 10.)
The Director shall invite:
 The Arizona Attorney General. A.R.S. §13-758.

No other person shall be present at the execution, unless
leave for such person’s presence is granted by the Director of
the Federal Bureau of Prisons. No person younger than 18
years of age shall witness the execution.
(28 C.F.R. § 26.4(c-d))

(DOJ Protocol at 8.)
When the condemned individual is informed by the Warden
of the execution date, he/she will be advised that he/she may
designate not more than one spiritual adviser, two defense
attorneys, and three adult friends or relatives (at least 18
years old) to be present at the execution. The condemned
individual will be asked to submit the list of his/her
witnesses to the Warden no later than 30 days after
notification of the date of the scheduled execution.

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 27 of 43

the execution. The Warden shall notify the inmate that
minors are prohibited from witnessing the execution
pursuant to A.R.S. §13-758. The Warden shall notify
the inmate that requests for Department or contract
staff to attend the execution shall be denied. The
Warden shall notify the inmate that requests for other
inmates to attend the execution shall be denied.

21

Appendix G - 065

ARIZONA

DOJ PROTOCOL(S)

(AZ Protocol at 10.)
Minors shall not be permitted to witness an execution.
(A.R.S. §13-758.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 28 of 43

 Twelve or more reputable citizens, including up
to five Arizona-market media.
(DOJ Protocol at 6.)
 The five official media witnesses selected as
representatives, from media-print,
television/cable, radio, and the local market
where the crime occurred. These official media
witnesses shall also agree to serve as pool
reporters.
 Law Enforcement and prosecutors from the
jurisdiction where the crime occurred.
 Any crime victims and survivors of the crime for
which the sentence of death will be imposed,
once the Victim Services Team identifies those
persons and provides to the Director a list of
victim witnesses within 14 days prior to the
scheduled execution.

22

Appendix G - 066

Entering the Chamber
DOJ PROTOCOL(S)

At the designated time, the overhead microphone will
be turned on and the inmate will be brought into the
execution room and secured on the table by the
prescribed means with the inmate’s arms positioned at
an angle away from the inmate’s side. Existing closedcircuit monitors will allow witnesses in the designated
witness room to observe this process.

Thirty minutes prior to the execution, at the appropriate time,
the condemned individual will be:

(AZ Protocol, Attachment D at 4.)

c. secured with restraints, if deemed appropriate by the
Warden;

a. removed from the Inmate Holding Cell by the Restraint
Team;
b. strip-searched by the Restraint Team and then dressed in
khaki pants, shirt, and slip-on shoes.

d. escorted to the Execution Room by the Restraint Team.
In the Execution Room the ambulatory restraints, if any, will
be removed and the condemned individual will be restrained
to the Execution Table.
(DOJ Protocol at 19.)
Approximately thirty (30) minutes prior to the scheduled
implementation of the death sentence, the condemned
individual will be escorted into the execution room. The
condemned individual will be restrained to the execution
table.
(DOJ Addendum 7/25/2019 at G.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 29 of 43

ARIZONA

23

Appendix G - 067

Witness Observation
ARIZONA

DOJ PROTOCOL(S)

(DOJ Protocol at 21.)

(AZ Protocol, Attachment D at 4.)
Existing closed-circuit monitors will allow witnesses in
the designated witness room to observe the IV Team’s
vein assessment and placement of IV catheters in the
inmate. In addition, the audio feed from the overhead
microphone will be turned off following the IV Team’s
assessment and placement of IV catheters.
A camera will be focused on the area in the chemical
room in which syringes are injected into the IV line,
and existing closed-circuit monitors will allow
witnesses in the designated witness room to observe the
administration of the lethal injection drug(s), including
the administration of additional or subsequent doses of
the drug(s).

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 30 of 43

Once the condemned individual has been secured to the
table, staff inside the Execution Room will open the drapes
covering the windows of the witness rooms.

At the designated time, the overhead microphone will
be turned on and the inmate will be brought into the
execution room and secured on the table by the
prescribed means with the inmate’s arms positioned at
an angle away from the inmate’s side. Existing closedcircuit monitors will allow witnesses in the designated
witness room to observe this process.

24

Appendix G - 068

ARIZONA

DOJ PROTOCOL(S)

(AZ Protocol, Attachment D at 4.)
Intravenous Access
ARIZONA
The Director acting upon the advice of the IV Team
Leader shall determine the catheter sites. A femoral
central line shall only be used if the person inserting
the line is currently qualified by experience, training,
certification or licensure within the United States to
insert a femoral central line. The IV Team members
shall insert a primary IV catheter and a backup IV
catheter.

DOJ PROTOCOL(S)
A suitable venous access line or lines will be inserted and
inspected by qualified personnel and a slow rate flow of
normal saline solution begun.
(Addendum 7/25/2019 at G.)

If peripheral venous access is utilized, two separate lines shall
be inserted in separate locations and determined to be patent
by qualified personnel. A flow of saline shall be started in
each line and administered at a slow rate to keep the line
The IV Team Leader shall ensure the catheters are
open. One line will be used to administer the lethal
properly secured and properly connected to the IV lines
substances and the second will be reserved in the event of the
and out of reach of the inmate’s hands. A flow of
failure of the first line.
sterile saline solution shall be started in each line and
administered at a slow rate to keep the lines open.

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 31 of 43

All cameras and monitors shall be placed in such a
manner so as to ensure and preserve at all times the
anonymity of all personnel involved in the execution
process.

25

Appendix G - 069

The IV catheter in use shall remain visible to the
Warden throughout the procedure.
Should the use of the backup IV catheter be determined
to be necessary, a set of backup chemicals should be
administered in the backup IV.
(AZ Protocol, Attachment D at 5.)
Last Words
ARIZONA

DOJ PROTOCOL(S)

The Warden shall read aloud a summary of the Warrant
of Execution. The Warden shall ask the inmate if he
wishes to make a last statement. The microphone will
remain on during the last statement. It will be turned
off in the event the inmate uses vulgarity or makes
intentionally offensive statements.
(AZ Protocol at 18.)

The condemned individual will be asked if he/she has any
last words or wishes to make a statement. The condemned
individual will have been advised in advance that this
statement should be reasonably brief.

(DOJ Protocol at 21.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 32 of 43

The primary IV catheter will be used to administer the Any failure of a venous access line shall be immediately
reported to the Director or designee.
lethal chemical(s) and the backup catheter will be
reserved in the event of the failure of the first line. Any
(Addendum 7/25/2019 at H.)
failure of a venous access line shall be immediately
reported to the Director.

26

Appendix G - 070

Administration of Drugs
ARIZONA

DOJ PROTOCOL(S)
A set of syringes will consist of:
Syringe #1 contains 2.5 grams of Pentobarbital Sodium in 50
mL of diluent
Syringe #2 contains 2.5 grams of Pentobarbital Sodium in 50
mL of diluent
Syringe #3 contains 60 mL of saline flush,

Upon direction from the Special Operations Team
Leader, the assigned Special Operations Team member
will visually and orally confirm the chemical name on
the syringe and then administer the first syringe of the
sterile saline solution, followed by the full dose of the
lethal chemical immediately followed by the sterile
saline solution flush.

Each syringe will be administered in the order set forth above
when directed by supervisory personnel.

(DOJ Addendum 7/25/2019 at H.)

When three minutes has elapsed since commencing the
administration of the lethal chemical, the IV Team
Leader, dressed in a manner to preserve their
anonymity, will enter into the room where the Warden
and inmate are located to physically confirm the inmate
is unconscious by using all necessary medically
appropriate methods, and verbally advise the Director
of the same. The IV Team Leader will also confirm
that the IV line remains affixed and functioning
properly.

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 33 of 43

Upon receipt of the Director’s order and under
observation of the IV Team Leader, the Special
Operations Team Leader will instruct the assigned
Special Operations Team member(s) to begin
dispensing the chemicals under the chosen drug
protocol.

27

Appendix G - 071

ARIZONA

DOJ PROTOCOL(S)

If deemed appropriate, the Director may instruct the
Special Operations Team to administer an additional
dose of the lethal chemical followed by the sterile
saline solution flush. This may be administered via the
primary or backup IV catheter, as determined following
consultation with the IV Team.
Upon administering the lethal chemical and sterile
saline solution from a backup set, the IV Team shall
determine whether the inmate is unconscious by sight
and sound, utilizing the audio equipment, camera and
monitor. The IV Team Leader will again physically
determine whether the inmate is unconscious using
proper medical procedures and verbally advise the
Director of the same.
(AZ Protocol, Attachment D at 5-6.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 34 of 43

If, after three minutes, the inmate remains conscious,
the IV Team shall communicate this information to the
Director, along with all IV Team input. The Director
will determine how to proceed or, if necessary, to start
the procedure over at a later time or stand down.

28

Appendix G - 072

Monitoring the Condemned
ARIZONA

DOJ PROTOCOL(S)

After the inmate has been secured to the execution
table, the Restraint Team Leader shall personally check
the restraints which secure the inmate to the table to
ensure they are not so restrictive as to impede the
inmate’s circulation, yet sufficient to prevent the
inmate from manipulating the catheter and IV lines.
A microphone will be affixed to the inmate’s shirt to
enable the IV Team or the Special Operations Team
Leader to hear any utterances or noises made by the
inmate throughout the procedure. The Special
Operations Team Leader will confirm the microphone
is functioning properly, and that the inmate can be
heard in the chemical room.
The Restraint Team members will attach the leads from
the electrocardiograph to the inmate’s chest once the
inmate is secured. The IV Team Leader shall confirm

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 35 of 43

The inmate will be positioned to enable the IV Team or The leads of a cardiac monitor will be attached by qualified
the Special Operations Team Leader and the Warden to personnel.
directly observe the inmate and to monitor the inmate’s
(Addendum 7/25/2019 at G.)
face with the aid of a high resolution color camera and
a high resolution color monitor.

29

Appendix G - 073

ARIZONA

DOJ PROTOCOL(S)

An IV Team member shall be assigned to monitor the
EKG, and mark the EKG graph paper at the
commencement and completion of the administration
of the lethal chemical(s).
Throughout the procedure, the IV Team Leader shall
monitor the inmate’s level of consciousness and
electrocardiograph readings utilizing direct
observation, audio equipment, camera and monitor as
well as any other medically approved method(s)
deemed necessary by the IV Team Leader. The IV
Team Leader shall be responsible for monitoring the
inmate’s level of consciousness.
(AZ Protocol, Attachment D at 4.)
Life-Saving Measures
ARIZONA
An Automated External Defibrillator (AED) will be
readily available on site in the event that the inmate
goes into cardiac arrest at any time prior to dispensing
the chemicals; trained medical staff shall make every
effort to revive the inmate should this occur. Trained

DOJ PROTOCOL(S)
An individual identified by the Warden will prepare
contingency plans related to an emergency occasioned by the
execution, such as an institution disturbance, hostage taking,
outside demonstration, outside assault on the facility, etc.

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 36 of 43

that the electrocardiograph is functioning properly and
that the proper graph paper is used.

30

Appendix G - 074

All plans will be reviewed and approved by the Warden and
the Regional Director.
(DOJ Protocol at 27.)

If at any point any team member determines that any
part of the execution process is not going according to
procedure, they shall advise the IV Team Leader who
shall immediately notify the Director. The Director
may consult with persons deemed appropriate and will
determine to go forward with the procedure, limited to
the option provided in Attachment D, §F(6), or to
stand down. If the Director determines to stand down,
then trained medical staff shall make every reasonable
effort to revive the inmate. (AZ Protocol, Attachment
D at 6.)
Declaring Death
ARIZONA

DOJ PROTOCOL(S)

When all electrical activity of the heart has ceased as
The Warden will finalize arrangements for a qualified
shown by the electrocardiograph, the IV Team Leader will person to be present at the execution and to declare the
confirm the inmate is deceased and the inmate’s death shall executed individual deceased.
be announced by the Director.
(DOJ Protocol at 9.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 37 of 43

medical personnel and emergency transportation,
neither of which is involved in the execution process,
shall be available in proximity to respond to the
inmate should any medical emergency arise at any
time before the order to proceed with the execution is
issued by the Director.

31

Appendix G - 075

After the lethal injection has been administered:

The Director shall announce death when it has occurred.

a. The EKG will be monitored until apparent signs of life
have ceased;

(AZ Protocol at 18.)
A Medical Examiner shall take custody of the body and
issue a Certificate of Death.
(AZ Protocol at 18.)
An IV Team member will clamp and cut the IV lines
leaving them connected to the inmate for examination by a
Medical Examiner.
A Criminal Investigations Unit Investigator and a Medical
Examiner will take photos of the inmate’s body:
While in restraints prior to being placed in the body bag,

b. The time of death will be announced prior to the
drapes being closed.
The Designated United States Marshal will complete and
sign the Return described in Section 26.2(b) of 28 C.F.R.
and will file such document with the sentencing court.
(DOJ Protocol at 21.)
The condemned individual will be examined by a
specified qualified person following the administration
of the lethal substances to ensure that death has occurred;

Sealed in the body bag, and

When the qualified individual is satisfied that death has
occurred, the time of death will be announced to the
witnesses.

A photo of the seal in place on the bag.

(DOJ Protocol at 22.)

Without restrains prior to being placed in the body bag,

The inmate’s body will be placed on a Medical Examiner’s
gurney and released into the custody of a Medical
Examiner’s Office.
(AZ Protocol, Attachment D at 7.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 38 of 43

(AZ Protocol, Attachment D at 6.)

32

Appendix G - 076

Attorney Access During Execution
ARIZONA

DOJ PROTOCOL(S)
[Not specified]

One attorney and two additional members of the legal team
may be permitted to remain in the office space during the
execution. The inmate’s legal team will be permitted to
bring into the temporary office space one mobile phone,
one tablet, and one laptop.
While the attorney witness is in the witness room, a
member of the Witness Escort Team shall hold one mobile
phone designated by the attorney, to be made available to
the attorney in exigent circumstances. The mobile phone
may not be used inside the witness room.
(AZ Protocol at 17.)
Video/Audio Recording
ARIZONA

DOJ PROTOCOL(S)

Unclear, but reference to closed-circuit television (and
audio) monitoring throughout protocol (very likely realtime).

No photographic or other visual or audio recording of the
execution shall be permitted.

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 39 of 43

In the event the inmate has designated one of his attorneys
to witness the execution, temporary office space will be
provided for the inmate’s counsel in the Administration
Building during the scheduled day of execution.

(28 C.F.R. § 26.4(f))

33

Appendix G - 077

Secrecy Provisions
ARIZONA

DOJ PROTOCOL(S)

Ariz. Rev. Stat. Ann. § 13-757(C-D)
The anonymity of any person, as defined in A.R.S. §1215(28) and A.R.S. §13-105(30), who participates in or
performs any ancillary function(s) in the execution,
including the source of the execution chemicals, and any
information contained in records that would identify those
persons are, as required by statute, to remain confidential
and are not subject to disclosure. A.R.S. §13-757(C).
(AZ Protocol at 2.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 40 of 43

The identities of personnel considered for and/or selected
to perform death sentence related functions, any
documentation establishing their qualifications and the
identities of personnel participating in federal judicial
executions or training for such judicial executions shall
be protected from disclosure to the fullest extent
If a person who participates or performs ancillary functions permitted by law.
in an execution is licensed by a board, the licensing board
shall not suspend or revoke the person's license as a result
(DOJ Addendum 7/25/2019 at B.)
of the person's participation in an execution.
The identity of executioners and other persons who
participate or perform ancillary functions in an execution
and any information contained in records that would
identify those persons is confidential and is not subject to
disclosure pursuant to title 39, chapter 1, article 2.

34

Appendix G - 078

Modification of the Protocol
ARIZONA

DOJ PROTOCOL(S)

Except as expressly permitted herein, the Director shall not
have any authority to deviate from or make adjustments to
any material aspects of the execution process, including,
but not limited to, the execution chemicals or dosages,
consciousness checks, the access of the press and the
inmate’s counsel to the execution, and the timeframes
established by this Department Order.
(AZ Protocol at 1, but see Dkt. No. 606-4.)

The purpose of this manual is to outline BOP policy and
procedures for planning and carrying out the execution
of a person convicted of a capital offense. These
procedures should be observed and followed as written
unless deviation or adjustment is required, as determined
by the Director of the BOP or the Warden.
(DOJ Protocol at 1.)
The procedures utilized by the BOP to implement federal
death sentences shall be as follows unless modified at the
discretion of the Director or his/her designee, as
necessary to (1) comply with specific judicial orders; (2)
based on the recommendation of on-site medical
personnel utilizing their clinical judgment; or (3) as may
be required by other circumstances.
(DOJ Addendum 7/25/2019 at A.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 41 of 43

This Department Order establishes procedures for planning
and carrying out the execution of a person convicted of a
capital offense and sentenced to death. These procedures
shall be followed as written, except that the Director of the
Arizona Department of Corrections (Director) is allowed to
make limited deviations from or adjustments to these
procedures when required to address certain unexpected or
otherwise unforeseen contingencies, subject to the
limitations on the Director’s discretion as set forth herein.

35

Appendix G - 079

Autopsy/Post-Mortem
ARIZONA

DOJ PROTOCOL(S)

After the execution has been carried out, qualified
personnel selected by the Warden shall conduct an
examination of the body of the prisoner to determine that
(AZ Protocol at 4.)
death has occurred and shall inform the Marshal and
The Warden shall summarize the options available with the Warden of his determination. Upon notification of
inmate for release and disposition of their body after the
prisoner’s death, the Marshal shall complete and sign the
autopsy is performed. The Warden shall direct the inmate Return described in § 26.2(b) or any similar document
to review the previously completed Disposition of
and shall file such document with the sentencing court.
Remains, Form 710-3, and update as necessary no later
The remains of the prisoner shall be disposed of
than 14 days prior to the execution. If the inmate provides
according to procedures established by the Director of
no information or the information is insufficient or
the Federal Bureau of Prisons
incorrect the deceased shall be disposed in accordance with
Department Order #711, Notification of Inmate
(28 C.F.R. § 26.4(g-h))
Hospitalization or Death.
The condemned individual's body will not be used for
(AZ Protocol at 4.)
organ donation.
(DOJ Protocol at 6.)
The Warden will review options available to the
condemned individual following the release of the body
to the Vigo County Coroner. The Warden will ask the
condemned individual to provide instructions concerning
the disposition of his/her body no later than 14 days prior
to the execution. If the condemned individual fails to

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 42 of 43

The Warden shall advise the inmate that his/her body shall
not be used for organ donation.

36

Appendix G - 080

ARIZONA

DOJ PROTOCOL(S)

(DOJ Protocol at 6-7.)
After the witnesses have departed, the restraints will be
removed from the condemned individual's body. The
Vigo County Coroner or designee will be escorted into
the Execution Facility. The body will be removed by the
Vigo County Coroner, who will place it in a coroner's
vehicle for transportation.
(DOJ Protocol at 23.)

Case: 20-99009, 08/19/2020, ID: 11794899, DktEntry: 16, Page 43 of 43

provide instructions, the body will be handled in
accordance with the Accounting Management Manual.

37

Appendix G - 081

Case: 20-99009, 08/21/2020, ID: 11798748, DktEntry: 25, Page 1 of 1

FILED
AUG 21 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

20-99009

D.C. No.
3:01-cr-01062-DGC-1
District of Arizona,
Phoenix

LEZMOND C. MITCHELL,
Defendant-Appellant.

ORDER

BEFORE: THOMAS, Chief Judge and Capital Case Coordinator
The full court has been advised of the petition for rehearing en banc, and no
judge of the court has requested a vote on the petition for rehearing en banc within
the internal time limits for making a request. Fed. R. App. P. 35(b).
The petition for rehearing en banc is denied. En banc proceedings are
concluded. Any remaining matters will be addressed by the three judge panel.

Appendix G - 082

Case 1:07-cv-02145-TSC Document 22 Filed 07/25/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
JULIUS ROBINSON,
Plaintiff,
v.
WILLIAM BARR, Attorney General,
U.S. Department of Justice, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 07-2145 (TSC)

NOTICE OF ADOPTION OF REVISED PROTOCOL
Pursuant to the Court’s January 13, 2012, Minute Order, Defendants hereby notify the
Court that the government has adopted a revised addendum to the Federal Bureau of Prisons’
execution protocol that provides for the use of pentobarbital sodium as the lethal agent. See
Exhibit A. Defendants will confer with Plaintiff about an appropriate schedule for further
proceedings in this matter and submit a status report advising the Court of the status of this
matter and the parties’ proposed schedule.

Dated: July 25, 2019

Respectfully submitted,

JOSEPH H. HUNT
Assistant Attorney General

JESSIE K. LIU
United States Attorney

JAMES M. BURNHAM
Deputy Assistant Attorney General

DANIEL F. VAN HORN
Civil Chief
U.S. Attorney’s Office

JOHN R. TYLER
Assistant Branch Director
Federal Programs Branch
DANIEL HALAINEN
Trial Attorney

/s/ Denise M. Clark
DENISE M. CLARK, D.C. Bar No. 479149
Assistant United States Attorney
U.S. Attorney’s Office
Civil Division

Appendix I - 083

Case 1:07-cv-02145-TSC Document 22 Filed 07/25/19 Page 2 of 2

Civil Division, Federal Programs Branch
U.S. Department of Justice
1100 L Street NW
Washington, DC 20530

555 4th Street, N.W.
Washington, D.C. 20530
202-252-6605
Denise.Clark@usdoj.gov
Counsel for Defendants

Appendix I - 084

Case 1:07-cv-02145-TSC Document 22-1 Filed 07/25/19 Page 1 of 2

ADDENDUM TO BOP EXECUTION PROTOCOL
FEDERAL DEATH SENTENCE IMPLEMENTATION PROCEDURES
EFFECTIVE JULY 25, 2019
A.

Federal death sentences are implemented by an intravenous injection of a
lethal substance or substances in a quantity sufficient to cause death, such
substance or substances to be determined by the Director, Federal Bureau of
Prisons (BOP) and to be administered by qualified personnel selected by the
Warden and acting at the direction of the United States Marshal. 28 CFR 26.3.
The procedures utilized by the BOP to implement federal death sentences shall
be as follows unless modified at the discretion of the Director or his/her
designee, as necessary to (1) comply with specific judicial orders; (2) based on
the recommendation of on-site medical personnel utilizing their clinical judgment;
or (3) as may be required by other circumstances.

B.

The identities of personnel considered for and/or selected to perform death
sentence related functions, any documentation establishing their qualifications
and the identities of personnel participating in federal judicial executions or
training for such judicial executions shall be protected from disclosure to the
fullest extent permitted by law.

C.

The lethal substances to be utilized in federal lethal injections shall be
Pentobarbital Sodium.

D.

Not less than fourteen (14) days prior to a scheduled execution, the Director or
designee, in conjunction with the United States Marshal Service, shall make a
final selection of qualified personnel to serve as the executioner(s) and their
alternates. See BOP Execution Protocol, Chap. 1, §§ III (F) and IV (B) & (E).
Qualified personnel includes currently licensed physicians, nurses, EMTs,
Paramedics, Phlebotomists, other medically trained personnel, including those
trained in the United States Military having at least one year professional
experience and other personnel with necessary training and experience in a
specific execution related function. Non-medically licensed or certified qualified
personnel shall participate in a minimum of ten (10) execution rehearsals a year
and shall have participated in at least two (2) execution rehearsals prior to
participating in an actual execution. Any documentation establishing the
qualifications, including training, of such personnel shall be maintained by the
Director or designee.

E.

The Director or designee shall appoint a senior level Bureau employee to assist
the United States Marshal in implementing the federal death sentence. The
Director or designee shall appoint an additional senior level Bureau employee to
supervise the activities of personnel preparing and administering the lethal
substances.

Appendix I - 085

Case 1:07-cv-02145-TSC Document 22-1 Filed 07/25/19 Page 2 of 2

ADDENDUM TO BOP EXECUTION PROTOCOL
FEDERAL DEATH SENTENCE IMPLEMENTATION PROCEDURES
EFFECTIVE JULY 25, 2019
F.

The lethal substances shall be prepared by qualified personnel in the following
manner unless otherwise directed by the Director, or designee, on the
recommendation of medical personnel. The lethal substances shall be placed
into three sets of numbered and labeled syringes. One of the sets of syringes is
used in the implementation of the death sentence and two sets are available as
a backup.

G.

Approximately thirty (30) minutes prior to the scheduled implementation of the
death sentence, the condemned individual will be escorted into the execution
room. The condemned individual will be restrained to the execution table. The
leads of a cardiac monitor will be attached by qualified personnel. A suitable
venous access line or lines will be inserted and inspected by qualified personnel
and a slow rate flow of normal saline solution begun.

H.

Lethal substances shall be administered intravenously. The Director or designee
shall determine the method of venous access (1) based on the training and
experience of personnel establishing the intravenous access; (2) to comply with
specific orders of federal courts; or (3) based upon a recommendation from
qualified personnel.
A set of syringes will consist of:
Syringe #1 contains 2.5 grams of Pentobarbital Sodium in 50 mL of diluent
Syringe #2 contains 2.5 grams of Pentobarbital Sodium in 50 mL of diluent
Syringe #3 contains 60 mL of saline flush,
Each syringe will be administered in the order set forth above when directed by
supervisory personnel.
If peripheral venous access is utilized, two separate lines shall be inserted in
separate locations and determined to be patent by qualified personnel. A flow of
saline shall be started in each line and administered at a slow rate to keep the
line open. One line will be used to administer the lethal substances and the
second will be reserved in the event of the failure of the first line. Any failure of a
venous access line shall be immediately reported to the Director or designee.

Appendix I - 086

